<html>
<title> - NATIONAL DEFENSE AUTHORIZATION ACT FOR FISCAL YEAR 2008 AND OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS BEFORE THE COMMITTEE ON ARMED SERVICES HOUSE OF REPRESENTATIVES ONE HUNDRED TENTH CONGRESS FIRST SESSION</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


                         [H.A.S.C. No. 110-18] 

                                HEARING 

                                   ON 
 
                   NATIONAL DEFENSE AUTHORIZATION ACT 

                          FOR FISCAL YEAR 2008 

                                  AND 

              OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS 

                               BEFORE THE 

                      COMMITTEE ON ARMED SERVICES 

                        HOUSE OF REPRESENTATIVES 

                       ONE HUNDRED TENTH CONGRESS 

                             FIRST SESSION 

                               __________

                         FULL COMMITTEE HEARING

                                   ON

             BUDGET REQUEST FROM THE DEPARTMENT OF THE ARMY

                               __________

                              HEARING HELD

                           FEBRUARY 14, 2007

                                     
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                     
                   HOUSE COMMITTEE ON ARMED SERVICES
                       One Hundred Tenth Congress

                    IKE SKELTON, Missouri, Chairman
JOHN SPRATT, South Carolina          DUNCAN HUNTER, California
SOLOMON P. ORTIZ, Texas              JIM SAXTON, New Jersey
GENE TAYLOR, Mississippi             JOHN M. McHUGH, New York
NEIL ABERCROMBIE, Hawaii             TERRY EVERETT, Alabama
MARTY MEEHAN, Massachusetts          ROSCOE G. BARTLETT, Maryland
SILVESTRE REYES, Texas               HOWARD P. ``BUCK'' McKEON, 
VIC SNYDER, Arkansas                     California
ADAM SMITH, Washington               MAC THORNBERRY, Texas
LORETTA SANCHEZ, California          WALTER B. JONES, North Carolina
MIKE McINTYRE, North Carolina        ROBIN HAYES, North Carolina
ELLEN O. TAUSCHER, California        KEN CALVERT, California
ROBERT A. BRADY, Pennsylvania        JO ANN DAVIS, Virginia
ROBERT ANDREWS, New Jersey           W. TODD AKIN, Missouri
SUSAN A. DAVIS, California           J. RANDY FORBES, Virginia
JAMES R. LANGEVIN, Rhode Island      JEFF MILLER, Florida
RICK LARSEN, Washington              JOE WILSON, South Carolina
JIM COOPER, Tennessee                FRANK A. LoBIONDO, New Jersey
JIM MARSHALL, Georgia                TOM COLE, Oklahoma
MADELEINE Z. BORDALLO, Guam          ROB BISHOP, Utah
MARK UDALL, Colorado                 MICHAEL TURNER, Ohio
DAN BOREN, Oklahoma                  JOHN KLINE, Minnesota
BRAD ELLSWORTH, Indiana              CANDICE S. MILLER, Michigan
NANCY BOYDA, Kansas                  PHIL GINGREY, Georgia
PATRICK MURPHY, Pennsylvania         MIKE ROGERS, Alabama
HANK JOHNSON, Georgia                TRENT FRANKS, Arizona
CAROL SHEA-PORTER, New Hampshire     THELMA DRAKE, Virginia
JOE COURTNEY, Connecticut            CATHY McMORRIS RODGERS, Washington
DAVID LOEBSACK, Iowa                 MICHAEL CONAWAY, Texas
KIRSTEN GILLIBRAND, New York         GEOFF DAVIS, Kentucky
JOE SESTAK, Pennsylvania
GABRIELLE GIFFORDS, Arizona
ELIJAH E. CUMMINGS, Maryland
KENDRICK B. MEEK, Florida
KATHY CASTOR, Florida
                    Erin C. Conaton, Staff Director
                 John Kruse, Professional Staff Member
                 John Wason, Professional Staff Member
                   Margee Meckstroth, Staff Assistant
                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2007

                                                                   Page

Hearing:

Wednesday, February 14, 2007, Fiscal Year 2008 National Defense 
  Authorization Act--Budget Request from the Department of the 
  Army...........................................................     1

Appendix:

Wednesday, February 14, 2007.....................................    45
                              ----------                              

                      WEDNESDAY, FEBRUARY 14, 2007
  FISCAL YEAR 2008 NATIONAL DEFENSE AUTHORIZATION ACT--BUDGET REQUEST 
                    FROM THE DEPARTMENT OF THE ARMY
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Hunter, Hon. Duncan, a Representative from California, Ranking 
  Member, Committee on Armed Services............................     2
Skelton, Hon. Ike, a Representative from Missouri, Chairman, 
  Committee on Armed Services....................................     1

                               WITNESSES

Harvey, Hon. Francis J., Secretary of the Army...................     4
Schoomaker, Gen. Peter J., Chief of Staff, U.S. Army.............     6

                                APPENDIX

Prepared Statements:

    Harvey, Dr. Francis J., joint with Gen. Peter J. Schoomaker..    51
    Skelton, Hon. Ike............................................    49

Documents Submitted for the Record:

    FY07 BRAC MILCON (Army) Impact Examples Chart................    63
    Military Recruiting and Waivers..............................    64

Questions and Answers Submitted for the Record:

    Mr. Abercrombie..............................................    72
    Mr. Castor...................................................    77
    Mr. Cole.....................................................    75
    Mr. Everett..................................................    72
    Mr. Hunter...................................................    71
    Mr. Kline....................................................    76
    Mr. Meehan...................................................    74
    Mr. Sestak...................................................    77
    Mr. Skelton..................................................    71
    Dr. Snyder...................................................    74
    Mr. Wilson...................................................    75
  FISCAL YEAR 2008 NATIONAL DEFENSE AUTHORIZATION ACT--BUDGET REQUEST 
                    FROM THE DEPARTMENT OF THE ARMY

                              ----------                              

                          House of Representatives,
                               Committee on Armed Services,
                      Washington, DC, Wednesday, February 14, 2007.
    The committee met, pursuant to call, at 10:08 a.m., in room 
2118, Rayburn House Office Building, Hon. Ike Skelton (chairman 
of the committee) presiding.

 OPENING STATEMENT OF HON. IKE SKELTON, A REPRESENTATIVE FROM 
        MISSOURI, CHAIRMAN, COMMITTEE ON ARMED SERVICES

    The Chairman. Good morning. Let me welcome you to the House 
Armed Services Committee regarding the Army budget request. I 
thank you, Secretary Harvey and General Schoomaker, for 
appearing before us once again to present the Army Department 
of Defense budget.
    I might say at the outset that we have a special guest, 
Secretary Harvey's wife Mary is here, and I am sure he will be 
very guarded in his answers to the penetrating questions. Mrs. 
Harvey, Mary Harvey, we welcome you.
    The Army has long needed, in my opinion, an increase in the 
end strength. Back in 1995 Lieutenant Ted Stroop testified in 
this room, my recollection is it was just as our troops were 
going into Bosnia, and he said that we need an additional 
40,000 soldiers. And of course we have had an increase in the 
end strength but we have been paying for them through the 
supplementals, and the request coming to us to pay for them is, 
in my opinion, correctly.
    The fiscal year 2008 Army budget request is $130 billion, a 
substantial $20 billion increase over fiscal year 2007. That 
should go a long ways toward meeting the increase in the size 
of the Army.
    The top priority I have in reviewing the Army's budget, no 
surprise, is readiness. General Schoomaker, you will recall 
that last year in July I asked you if you were comfortable with 
the readiness of the units here in the United States and your 
answer was no.
    This committee intends to do everything to help change that 
so should you have that question in the future, would you have 
a different answer.
    Today the Army is engaged in two primary conflicts. I 
recently returned from a trip to Afghanistan feeling that our 
fight there is winnable. And I wish I was as optimistic about 
Iraq as the President's proposed troop increase is on the 
doorstep.
    The extension of troop increase in Iraq increases, in my 
opinion, the strategic risk to our country in that we may not 
have the right resources when our country is next called upon 
to deter or respond to a conflict. In the last 30 years, we 
have had 12 military conflicts, some small, some, as you know, 
quite large. I hope that is not a forerunner of what the future 
holds, but it does give us cause to reflect on the potential 
and the threats that are out there.
    So it is with some relief that I note that $37 billion in 
fiscal year 2008 as a war request is allocated to reconstitute 
equipment that is lost or damaged in the war. My understanding 
is that 40 percent of the Army, National Guard, reserve and 
active duty is either in Iraq or Afghanistan. I remain 
concerned over the future combat system program. I am sure that 
you will discuss that today.
    I also, without objection, place the remainder of my 
statement in the record.
    I welcome you, Secretary Harvey and General Schoomaker. It 
is interesting to note, General Schoomaker, as I mentioned, the 
new Army uniforms, they harken back to the television pictures 
that we see of the calvary riding in its blue uniform of 
yesteryear on the frontier. Welcome, both of you, and thank you 
for your service. You make us proud.
    Mr. Hunter.
    [The prepared statement of Mr. Skelton can be found in the 
Appendix on page 49.]

    STATEMENT OF HON. DUNCAN HUNTER, A REPRESENTATIVE FROM 
    CALIFORNIA, RANKING MEMBER, COMMITTEE ON ARMED SERFVICES

    Mr. Hunter. Thank you, Mr. Chairman.
    I want to join you in welcoming our guests. Mr. Secretary 
and General Schoomaker, thanks for being with us today. We are 
fortunate to have each of you serving our country.
    General Schoomaker, we understand this will be your last 
appearance at a posture hearing before the committee in your 
current role. We want you to know we appreciate all that you 
have done to help America's soldiers and their families during 
this war and all you have done to be a leader in this 
warfighting effort. I think you made the statement that you 
made a mistake by answering your cell phone in your pickup 
truck in Wyoming to get into this thing, but I think you have 
done an excellent job.
    The Chairman. I don't know whether we are not close enough 
to the microphone or the sound system is not picking us up.
    Mr. Hunter. I will try to get in closer, Mr. Chairman.
    General Schoomaker, thank you for your efforts in this very 
challenging time for our country. You have got a long and 
illustrious career serving the uniform and serving our flag. We 
want to thank you for this career as you close out this last 
appearance before our committee. And as a world class team 
roper, I want you to know that rope is on its way, General.
    We have the fundamental issues before the Congress and the 
committee that we have to address in this budget and we need to 
look at the budget and determine whether it establishes a 
proper policy framework, sufficient funding to meet current and 
future national security challenges and supports the need of 
our men and women in the United States Army.
    You know, I think we concur that members on this committee 
have been to the warfighting theaters a lot of times. We have 
met with a lot of your great personnel. We have watched them in 
action and watched them undertake technically difficult systems 
that would have been very challenging in years past, and 
handling everything with a lot of balance and a lot of grace. 
It is my opinion that we have the finest Army we have ever had.
    Having said that, I also applaud the administration's 
decision to increase the size of the Army by adding six brigade 
combat teams. This committee has taken the lead over the last 4 
years in expanding the size of the Army by 30,000 to its 
present end strength of 512,000 from 482,000.
    In 2006, we conducted a committee defense review, and I 
think your recommendation this year that the Army be increased 
in size is a validation of why we did that. We thought, and I 
personally thought, that the Quadrennial Defense Review (QDR) 
had become a budget driven document rather than one that looked 
at the threat and looked at the requirement for capabilities 
and at that point laid out what we needed to defend the country 
and allowed us to decide what size funding box it was going to 
go into, but that the QDR had evolved into a budget driven 
document and we needed a capabilities driven document, which we 
produced with the committee defense review (CDR).
    As you may know, we recommended an increase of eight Army 
brigades. And I am sorry that not all of the members of the 
committee did not endorse that CDR, but I think the validity of 
doing our own defense review and looking at the requirements 
and the world as it really is and the threat has basically 
justified that exercise.
    One area that particularly concerns me is whether or not 
the national guard and reserve are getting what they need to 
properly reset. I have had some frank conversations with the 
guard.
    Last year, General Schoomaker, you told us that you were 
going to be way short on reset money. What we did then, the now 
Chairman Skelton and I, was to schedule hearings. We had 
classified hearings in which you came in and told us what you 
needed. My direction to the staff at that point was to get 
every last dime of requirement laid out by your excellent staff 
folks and by you, as well as the requirements from the U.S. 
Marine Corps, figure out how much of that we funded in the base 
budget last year, how much was funded in the supplemental, and 
how much in the so-called bridge fund, and whatever the balance 
was, authorize and appropriate every dime of what you required.
    We did that. At least my direction at that time was not to 
leave off a dime, to do everything we needed.
    The total for the Marine Corps and the Army came to little 
under $20 billion. That is what we authorized. That was 
followed by the appropriators and by the Senate, and that was 
what was finally signed by the President.
    Talking to the national guard over the last several days, 
they stated that for some reason or other they did not get 
their oar in the water on their requirements and on reset. The 
figure I saw was that they felt that they had major shortages. 
Army National Guard was something like $24 billion and Air 
National Guard about $14 billion.
    So that is something that is kind of disturbing because we 
were going to war with a total force. Obviously keeping them up 
to speed and equipped is a key aspect of our warfighting 
capability.
    So if you can talk about that a little bit today, General 
Schoomaker, and let us know where you think we need to go. 
Maybe we need to do the same thing as last year and that is 
come in with a big chunk of money for reset and for reequip of 
the guard units. If we have to do that, let's do it. Now is the 
time.
    So I look forward to hearing from you. Mr. Secretary, 
obviously I want to hear your comments on this also.
    Thank you, Mr. Chairman, for having this hearing. It is 
appropriate. We are leading off this year with this very, very 
important arm of America's national security. We appreciate all 
your service to the country.
    Mr. Chairman, I look forward to the remarks and questions.
    The Chairman. Thank you very much, Mr. Hunter.
    An announcement for the committee members, there will be a 
classified briefing on Iran at 10 a.m. tomorrow.
    Gentlemen, your full statements will be incorporated, 
without objection, in the record. If you could confine your 
remarks to four minutes, we would appreciate that.
    I am very pleased that the committee is doing a good job of 
staying within the five-minute rule, which means more people 
have the opportunity to ask questions.
    Secretary Harvey, thank you for being with us, and General 
Schoomaker.

   STATEMENT OF HON. FRANCIS J. HARVEY, SECRETARY OF THE ARMY

    Secretary Harvey. Mr. Chairman, Congressman Hunter, and 
distinguished members of the Committee on Armed Services, 
General Schoomaker and I appreciate this opportunity to testify 
before you on the posture of the United States Army.
    Today, almost 600,000 soldiers are on active duty serving 
in nearly 80 countries worldwide and making enormous 
contributions and sacrifices.
    Since 9/11, there have been over 750 active and reserve 
soldiers deployed in support of the global war on terror 
(GWOT). Their presence has enabled historic elections to occur 
in Afghanistan and Iraq and for democratic institutions to 
begin to take hold in these countries.
    In addition, our soldiers have been involved in many 
operations to secure our homeland. The demands on the Army, 
however, are far greater than those associated with the war on 
terror. They include helping to defend South Korea, Japan and 
many other strategic partners; keeping the peace in the Sinai, 
the Balkans and the Horn of Africa; securing our borders as 
demonstrated by the major component of reserve component 
soldiers to the Southwest border during this past year; 
conducting operations and furnishing equipment in support to 
counter the flow of illegal drugs; and, finally, supporting 
civil authorities in response to natural disasters.
    In the past 2 years I have visited thousands of soldiers at 
over 150 installations both here and abroad. Their boots on the 
ground reflect the very best our Nation has to offer. They 
symbolize America's commitment to advancing freedom and 
democracy in troubled spots worldwide. Their courage and 
unwavering devotion to duty never ceases to amaze me. I am 
proud to serve alongside General Schoomaker, to lead and to 
care for these dedicated patriots and their families.
    We would both like to thank the President, the Secretary of 
Defense, and the Congress for the considerable support that we 
have received to execute current operations, to begin to 
restore the depth and breadth of the readiness of our current 
force, and to build the Army of the future to transformation 
and modernization. We will need additional support to close the 
gap between demand in resources, particularly as we maintain an 
extraordinarily high operational pace and grow the Army.
    Full support of our budget submission in our supplemental 
and GWOT requests is needed to enable continuing progress. In 
light of the growing threats to the Nation posed by states and 
nonstate movements and organizations, the environment in which 
our soldiers operate will remain extraordinarily dangerous for 
the foreseeable future. Our mission within this environment 
will remain largely unchanged. The Army, as a vital ground 
component of the joint team, will be required to conduct 
prompt, sustained, offensive, defensive and stability 
operations.
    We will continue to provide the forces and capabilities to 
the combatant commanders needed to sustain the full range of 
U.S. global commitments. To accomplish our mission today and 
tomorrow we are executing four overarching and interrelated 
strategies. We are first providing relevant and ready land 
power for the 21st century.
    Second, training and equipping soldiers to serve as 
warriors and growing adaptive leaders.
    Third, sustaining an all volunteer force composed of highly 
competent soldiers who deserve an equally high quality of life.
    And finally, providing the infrastructure and support to 
enable our forces to fulfill its strategic roles and missions.
    The successful execution of these strategies is in turn 
critically dependent on the successful implementation of five 
initiatives. First, we must grow the Army and we are doing 
that. Second, we must reconstitute our force. We have a robust 
reset program to do that.
    Third, we must modernize the force because force 
modernization and in particular the Future Combat System 
program are critical to the Army's future readiness.
    Fourth, the Army must help to build partnerships with 
foreign militaries and to preserve the coalition that has been 
formed to counter terrorism by training and advising the 
military forces of many nations.
    Finally, we must provide the required facilities 
infrastructure in a timely fashion if we are to grow the force, 
deploy well-trained cohesive units able to meet the demands 
placed upon them, reposture our units from overseas, and 
provide a quality of life for our soldiers and their families 
that is equal to the quality of their service.
    We must get this right for our soldiers and their families, 
and we urge Congress to restore Base Realignment and Closure 
(BRAC) funding at the very first opportunity to enable us to 
meet the requirements of law, minimize further disruptions and 
grow the force to sustain the long war.
    In conclusion, the changes posed by the 21st century 
security environment driving the vision for the force we must 
become to continue to accomplish our mission and thereby to 
preserve the peace and freedom of our great Nation, we will 
ensure that our Army continues to be ready and relevant in 
terms of its capabilities and capacities for whatever the 
Nation requires.
    To accomplish our mission today and to realize our vision 
over time, the Army must be fully resourced for fiscal year 
2008 and beyond to enable it to simultaneously grow, transform 
and modernize while effectively fighting the war on terrorism. 
On this basis we ask the House Committee on Armed Services to 
authorize full funding of the fiscal year 2008 Presidential 
budget, the fiscal year 2008 GWOT request, and the 2007 
emergency supplemental request.
    I look forward to answering your questions. I will now turn 
it over to General Schoomaker for his opening remarks.
    [The joint prepared statement of Secretary Harvey and 
General Schoomaker can be found in the Appendix on page 51.]
    The Chairman. General Schoomaker.

  STATEMENT OF GEN. PETER J. SCHOOMAKER, CHIEF OF STAFF, U.S. 
                              ARMY

    General Schoomaker. Mr. Chairman and distinguished members 
of the committee, let me thank you for the kind words that you 
expressed today. I can tell you, although I have joked in the 
past about making a mistake about answering my cell phone, it 
was a distinct honor to be asked to come back and it has been a 
tremendous privilege to be able to serve the over 1 million 
active, national guard, and reserve members of our Army, their 
families, and the 240,000 civilians that we have in our Army. I 
thank you very much for those kind words.
    I would also like to correct the record. I am a world class 
team roper, but it is not in the class I would like. Anybody 
that has roped with me knows that. I promise you at the age of 
61, I am going to practice a lot after 10 April, when I leave 
the Army.
    I would like to focus today on our efforts to increase the 
depth and breadth of the Army capabilities and readiness and in 
turn to decrease the levels of strategic risk that we currently 
assess.
    But before I yield in my opening statement, I would like to 
introduce three members of the Army that are with us today.
    First, from the Army National Guard is Sergeant First Class 
Vincenzo Battaglia from Roswell, Georgia. He is from the 
Georgia Army National Guard. Over the past 4 years, he has been 
mobilized or deployed for nearly 30 months. This combat medic 
served in Kuwait and Iraq from May of 2005 through May of 2006. 
As a member of the 108th Armor Battalion, he provided trauma 
care and medical support for American soldiers in Mahmudiyah to 
more than 2,000 Iraqi civilians. His adaptive thinking and 
professional competence enabled him to save the lives of four 
Iraqi civilians who were so badly burned that the local clinic 
refused to treat them. Sergeant First Class Battaglia is the 
recipient of the Bronza Star Medal, the Combat Medic Badge and 
the Senior Aircraft Crewman Badge.
    From the Army Reserve, Sergeant 1st Class Richard Salazar 
of San Antonio, Texas, who was mobilized and deployed to Iraq 
with the 336 Military Police Battalion of the 321st Civil 
Affairs Brigade from January through December of 2004. He is a 
battalion paralegal and a civil affairs specialist. During his 
time in Iraq, Sergeant 1st Class Salazar provided the only 
full-time legal support for over 600 soldiers, served as a 
field ordering officer, and maintained all the personnel 
records for a 400-person internment facility. He worked 
alongside the military police as they manned vehicle 
checkpoints and searched suspected insurgent safehouses.
    Sergeant First Class Salazar as a soldier on Active, guard 
and reserve status also represents a critical aspect of what 
our reserve component soldiers provide, and that is full-time 
support to enable our guard and reserve units to sustain a high 
operational tempo and to support their mobilization activities. 
He is the recipient of the Combat Action Badge.
    Finally, it is my pleasure to introduce Sergeant Jesse 
Greene, an active duty soldier, a military policeman as well, 
from Worchester, Massachusetts. He was deployed with the 293rd 
Military Police Company. His courage under fire as part of a 
team conducting a force protection mission in Diyala Province, 
Iraq, in 2004 led to the successful defense of an Iraqi police 
headquarters and saved numerous Iraqi police and civilian 
lives. For his efforts, he earned a Bronze Star Medal with 
``V'' device for Valor, a Purple Heart Medal, and is the 
recipient of the Combat Action Badge.
    These soldiers epitomize your Army and demonstrate why I am 
so proud to testify with them.
    Finally, if you permit me in response to your opening 
statement, of the $17.1 billion that was provided us this year 
by this committee, about $3.4 billion of that is going to reset 
guard and reserve equipment. About 80 percent of the equipment 
that is forward deployed is active equipment. Obviously the 
residual 20 percent. Therefore, that is why there is that 
division. However, as you look at the budget that we are 
talking about today, as we talk about the posture statement, 
there is over $40 billion worth of equipment in that budget for 
guard and reserve, about two-twenty, thirteen.
    In response to your request, Mr. Hunter, for the unfinanced 
requirements list that I believe you received from me, there 
are about ten billion in there of unfinanced requirements that 
we provided in response to the request, which also includes 
guard and reserve equipment.
    If you look beyond 2013, our estimation is there is 
approximately $52 billion of additional equipment required to 
totally equip the Army. Inside of that $52 billion is the $10 
billion of unfinanced.
    The only reason I bring this up is to demonstrate the 
context and magnitude of what it would take. By 2013, we will 
have taken a very major chunk out of our readiness and 
recapitalization of the Army, but there is still work to do 
beyond that.
    Finally, I would like to thank you for the considerable 
support we have received from this committee and the Congress 
to accomplish our mission today. As a result, the soldiers that 
we have deployed in the current theaters of operation are the 
best trained, best equipped and best led we have ever fielded. 
I have said that many times. I mean it from the heart. This is 
unquestionably the best Army we have ever fielded.
    As I have explained in my recent testimony during our 
recent posture statement, our immediate challenge lies not in 
what we are fielding but it is enhancing the readiness of the 
nondeployed forces. It is the strategic depth of the Army that 
concerns me. We will need your continued support in several key 
areas to restore the readiness of our Army that will be needed 
to build the strategic depth required to respond decisively to 
both current and future threats.
    With that I will conclude. I thank you again for your kind 
words and all of the support that this committee has provided 
the Army.
    [The joint prepared statement of General Schoomaker and 
Secretary Harvey can be found in the Appendix on page 51.]
    The Chairman. Thank you very much. A special welcome to 
Sergeants Battaglia, Salazar and Greene. We thank you for your 
service.
    I am going to ask one question right now before I call on 
the gentleman from California.
    The Army, and either one of you or both of you may wish to 
comment on this. The Army did not meet its authorized end 
strength of 512,000 in fiscal year 2007 and the President's 
budget of course, which is a good thing, calls for an increase 
in end strength.
    The chairman of the oversight subcommittee, Congressman 
Meehan from Massachusetts, has recently pointed out a serious 
question regarding the quality of the new recruits. Some, of 
course, according to the news media and what Mr. Meehan has 
pointed out, have court records. Quality has been your gold 
star, and I wish you would comment on the quality of the young 
recruits that are coming in and what the future foretells for 
the quality of our Army.
    The gentlemen behind you are national treasures, they and 
their colleagues, and it concerns me a great deal that there 
might be a dilution and the Army in the future may not be what 
they are today.
    Will each or both of you comment on that? I am deeply 
concerned about that.
    Secretary Harvey. Mr. Chairman, I will start out.
    First of all, let me address the issue of overall quality 
and then I will address the issue of the waiver situation.
    In terms of quality, and I think the Chief will go into 
this in more detail, this is the highest quality force we have 
ever had. The reason I mention the Chief is the Chief goes back 
to Vietnam and he knows what a broken Army is and he knows what 
a low quality Army is and this is far from that.
    First of all, only 3 out of 10 young people from the ages 
between 17 to 24 fully qualify for the Army.
    Second, about 60 percent of those score in the top 50th 
percentile in our adaptive battery test, our so-called college 
board. If we look at the composition of the 2006 recruits, you 
will find that there is between the active and the reserve, 
there was over 12,000 individuals that had some college degree. 
As a matter of fact, 5,000 had an associate degree or higher; 
210 of our recruits had Master's Degrees, and 17 had PhDs.
    In terms of the so-called Category four--and remember, we 
don't recruit Category five--Category four, by DOD standards, 
that is limited to four percent. We were slightly below four 
percent last year.
    To give you a little perspective, if you look at 1980, for 
example, you will see that 50 percent of Army recruits were in 
Category four and there are many of those who did not have a 
high school degree. All of our recruits have a high school 
degree or equivalent. By those statistics and by the experience 
of our professional military soldiers, particularly officers 
that go back to Vietnam, this is the highest quality force we 
have ever had.
    In terms of waivers, I pay very close attention to that. I 
look, we look and review those statistics every day. They have 
certainly gone up over the last couple of years and we have 
them by category, medical and moral. By policy we keep the 
percent of medical waivers referred to in the drug and alcohol 
abuse category to less than one percent; serious criminal 
misconduct by less than one percent. Those that are let in are 
reviewed personally individually by a general officer before 
they are allowed access in the Army.
    In terms of misdemeanors, I guess our policy is the policy 
of the United States of America, and that is we give people a 
second chance. This is the country that gives people a second 
chance, and I hate to think if a young man or woman made one 
mistake in his or her life in their early years they would be 
banned from the Army or any other organization in America. I 
don't think that is the American way. I think we abide by that.
    In terms of the medical waivers, again, both the 
misdemeanors and medical waivers, they have to be reviewed and 
approved by battalion or brigade commander. Then we look at 
those particular individuals that we have given waivers to in 
terms of their attrition and staying in the Army, and today of 
course it is the lowest attrition rate in early entry training, 
about six to seven percent. We find no difference between those 
individuals that are given a waiver in terms of attrition and 
those that weren't.
    So we monitor that. We look at it at the beginning. We have 
the general officers involved for the serious and for the drug 
and alcohol. Again, I think it is the American way to give 
people a second chance. I know you have, Mr. Chairman, and I 
have had many, many people come up to me and say thank God I 
joined the Army. It really straightened me out. I wasn't the 
best guy or gal in the beginning; but once I was given the 
discipline and the leadership training and the education in the 
Army, I have had a very successful life. That is our attitude 
overall in regards to that.
    The Chairman. General.
    General Schoomaker. Sir, I can do little to improve upon 
that statement, but I would like to correct something. Last 
Friday I testified before the Defense Subcommittee and I made a 
statement that in the 1980's we had over 50 percent Cat 4s, and 
I was a little off. I have the chart here. We were at 50 
percent in 1979 Cat 4s in the Army. At 1980, we were at 56 
percent. We started declining, 35 percent, then 22. We got out 
of the double digits by 1985 when we got to 9 percent Cat 4s. 
That is almost three times where we are today.
    This is the highest quality force that I have served in. I 
look at the force from the standpoint of our discipline rates, 
drug abuse and the other kinds of indicators that we have out 
there, and such things as retention. Again, we are enjoying 
very low statistics on all of those categories. In my view, 
that is further evidence this is a very high quality force.
    I think we are going about it correctly. I think we need to 
take a look at especially juvenile offenses. We need to take a 
case-by-case look at it and give some of these young men and 
women a chance in the Army. The Army has proven that it is a 
builder of young men and women and leaders for this Nation. I 
am very comfortable with what we are doing.
    The Chairman. Back in fiscal year 2004, it was one-half of 
one percent, and it appears that it must be increasing 
somewhat; am I correct?
    Secretary Harvey. In terms of Category fours?
    The Chairman. Yes.
    Secretary Harvey. My recollection is about two percent, Mr. 
Chairman. That happened to be under that year of the DOD 
standard of four percent. I think that was just a circumstance 
that happened at that time. It was about two percent, maybe one 
point eight, something like that.
    The Chairman. Mr. Hunter.
    Mr. Hunter. Thank you, Mr. Chairman.
    Again, thanks for this hearing.
    Let me go back to the equipment issue and to the Guard 
because I am still trying to get my arms around this thing. I 
think there may be a requirement for us to do some more this 
year in a supplemental or in the base bill.
    Talking to the National Guard, and I have their resources 
for readiness document in front of me. General or Mr. 
Secretary, I don't know if you have seen this. It has Army 
National Guard unfunded. It has the program over the Five Year 
Defense Plan (FYDP) that you referred to, General, and it has 
an unfunded requirement of $24 billion.
    Now in talking to the guard earlier, specially when they 
were going over systems and platforms, like Humvees, the one 
theme was that guard units were going over to--were moving to 
the warfighting theaters and were dropping equipment early on 
in the operations in Kuwait, were taking on the upgraded 
equipment and going across the berm with upgraded equipment, 
with the new equipment, and that speaks well for the Army. But 
we are coming back without any equipment. So the theme being 
that they were dropping equipment, and what that implied to me 
was there was a lot of stuff sitting in motor pools or lots or 
inventory points in Kuwait or in country.
    I look at the number of up-armored Humvees, for example, 
that we have sent to theater, about 15,000. That begs the 
question: What has happened to the Humvees, the soft Humvees 
that were replaced? Where did they go?
    Just instinctively, it would appear that we don't have our 
arms around all of the equipment that is located, the 
inventories of equipment that are located in the warfighting 
theaters. One example is the MAC kitted Humvees have been 
replaced. The Marine Corps has replaced those with 1114s. I 
believe they have one location in theater something like 1,800 
MAC kitted Humvees. I wonder if there is a counterpart for the 
Army.
    The last category that the national guard has, equipment 
not on hand. I don't know if you have seen their analysis here. 
They have a $13.1 billion unfunded requirement for equipment 
not on hand.
    My thought is the first thing we need to do is make sure 
that we have everything that is on hand, that is under the 
control of the United States Government, and I just suspect 
that there is quite a bit of equipment in Kuwait or in theater 
that nobody has got an inventory tag on that may mitigate that 
$24 billion shortage. And there may indeed be equipment that 
other services have. For example, if the Marine Corps has 
totally upgraded to 1114s and have parked 1,800 perfectly good 
MAC kitted Humvees, then a transfer to the guard, that is 
something like 170 to $200 million of Humvees in that one lot, 
might be something that would be beneficial to them.
    What are your thoughts about whether or not we have a good 
handle on what the Army owns, period, whether it is in Kuwait, 
Afghanistan, Iraq, or the Continental United States (CONUS)? Do 
you know what we have?
    Secretary Harvey. Mr. Hunter, I will start out. Yes, we do 
know what we have. We have an automated property book 
accounting system for every piece of equipment in and out of 
theater. We do have that.
    I know you know this very well, but in regards to the non-
1114, 1151, 1152 Humvees, there is on the order of 10 to 12,000 
of those, they have been replaced by up-armored Humvees, you 
mentioned the plus 15,000. That is a correct number as of the 
end of January.
    Those Humvees, those so-called Level two Humvees, a number 
have been brought to the United States for training. A number 
have been given to the Iraqis. A number have been given to the 
Afghans. They provide a high level of protection, but as you 
have noted in the past, they are not the 1114s that we know. So 
some of those have been given to the Iraqi and Afghan armies. 
Others have been brought back here for training, home station 
training and also for unit training.
    And then we could distribute some of those Humvees to the 
national guard. However, the standard now is the up-armored. So 
that would be an interim solution that we could in fact 
implement.
    From my point of view the national guard and the reserves 
work very closely with the G8. The Army speaks in identifying 
the equipment. We have detailed lists by state of every piece 
of equipment on hand. We call it EO8. We know exactly what they 
have on hand and then what they do, because of the rotation 
cycles of guard and reserves which you know is longer certainly 
in the active, they have subdivided the equipment that is not 
on hand into a category of 342 line items which are for State-
related missions.
    For example, last year in preparation for the hurricane 
season, all of the hurricane States, the so-called horizontal 
along the gulf and the vertical along the Atlantic, as well as 
Hawaii, had 100 percent of the equipment that they needed to 
perform their hurricane mission if they were so called upon to 
do that.
    So there is great visibility of every piece of equipment in 
the Army. There is a very keen awareness on the part of the 
Army staff on what the needs of the Army National Guard and 
Reserves are. And as the Chief noted, we have about $45 billion 
in the Future Defense Program for that, and the Chief also 
identified the 24, and I have the same piece of paper you have, 
and that is outside the Future Years Defense Program. We can 
talk about whether you want to bring that in or not.
    Mr. Hunter. Mr. Secretary, Humvees, what if we isolate 
Humvees? Could you get us a fix on how many Humvees the Army 
owns, whether it is Iraq, Afghanistan, Kuwait, or CONUS? 
Second, consult with the Army National Guard and ask them how 
many Humvees they are short?
    Secretary Harvey. Right.
    Mr. Hunter. If they are short X-thousand Humvees and we 
have X-thousand Humvees at various locations, a cumulative 
total of that, let's contemplate a transfer. For example, for 
hurricane-type missions, for homeland missions, up-armored 
Humvees are quite inconvenient.
    Secretary Harvey. Exactly. We would take the up-armor off.
    Mr. Hunter. So the ASKs, the early Humvees we sent over 
there, they might be ideal. That might be preferable to letting 
them go for a few pennies on the dollar to another country if 
in fact there are some shortages.
    So two things. Can we get a number for the committee as to 
how many Humvees we by golly own in the U.S. Army? Number two, 
how many Humvees the Army Guard says it is short. We get those 
two numbers, then we will get that rope to General Schoomaker.
    Secretary Harvey. We do those numbers and the dynamics. We 
will check and submit it to you for the record.
    [The information referred to can be found in the Appendix 
beginning on page 71.]
    General Schoomaker. I would like to add, take just a 
contextual view. The Army has over 100,000 Humvees. As you 
know, when this war started, we had a requirement for about 
253, I believe. We now have approaching 18,000 being up-
armored. It would not be my advice that we try to up-armor all 
of the some hundred thousand Humvees because we already know 
that with the Mine Resistant Ambush Protected (MPAP) program 
that we want to move to a much more substantial vehicle that is 
designed with V hull, et cetera, to do it. So there is a 
crossover point on what we do.
    The second point I would like to make, three years ago we 
did not have automation in the property accountability. We now 
have a system. And over the last two years, we have put three 
officers with teams in theater for the specific purpose of 
bringing this visibility under control and automating it so we 
know what we are doing. This year alone we doubled the amount 
of equipment that we retrograded and got it out of theater and 
got it into reset using the money you have given us.
    What I would say is we have to be very careful as we look 
forward in how we want to apply our dollars so what we end up 
providing is something that is taking us forward, not resetting 
the past.
    And the $24 billion that you talk about is inside that $52 
billion that I said was beyond this budget, the 2013. However, 
inside this program is about $46 billion worth of equipment for 
the guard and reserve. So there is a considerable chunk in 
there. If we want to accelerate more of that $52 billion, that 
is another issue. But we do have a very aggressive program to 
make up for this shortage, and that is part of the strategic 
depth issue.
    The Chairman. Thank you. Mr. Taylor.
    Mr. Taylor. Thank you, Mr. Chairman.
    Mr. Secretary, and General, happy birthday.
    Two things: The President's request for an additional 
20,000 troops, this is directed to the General. Good thing, bad 
thing?
    And directly tied to that on the MRAP program, the Marine 
Corps has what I think is a very reasonably aggressive program 
to replace every vehicle in theater, every wheeled vehicle in 
theater by the early part of next year, to have ordered and in 
place about 3,000 vehicles by early next year. The Army on the 
other hand is only asking for about 1,500, and considering that 
you have about 20,000 vehicles in Iraq, where I find a 
disconnect is if your answer is going to be that the additional 
20,000 troops is a good thing, why is the Army apparently 
dragging its feet on getting more MRAP type vehicles to Iraq?
    Please don't tell me it is dollars because believe me, I 
think I can speak for every member of this committee, we would 
much rather spend the money on the MRAP and find that the war 
ended sooner than we thought than have one kid needlessly 
buried at Arlington or one kid needlessly at Walter Reed 
without their arms or legs.
    General Schoomaker. Sir, I share your feelings totally.
    The MRAP program is a joint Marine-Army program, and it is 
under the management of the Department of the Navy is my 
understanding.
    The Marine Corps and the Army, I am informed, both have 
equal money. It is about $500 million, I believe, in that 
program. The Marine Corps' buy is about 1,066, something like 
that right now. They are asking for some 3,000. Our buy is 
2,500.
    The very first thing on the list that I provided at the 
request of Congressman Hunter is the MRAP inside that ten 
billion in unfunded requirements. So we have a sense of urgency 
and we have a desire to have that.
    Mr. Taylor. So why a significantly lower number than the 
replacement of every vehicle? I should have figured this out, 
but the Humvee, when General Blum explained it to me, actually 
acts as a shape charge to direct the blast inside the cabin, 
which is why we hear the gunner being thrown out on a regular 
basis.
    Given that it has become the enemy's weapon of choice, to 
put a pressure-detonated mine out there, or at least some mine 
underneath the vehicle, and given that I think you are going to 
say we need the additional 20,000 troops, why the hesitancy not 
to equip them with the best vehicle as quickly as possible, all 
of them?
    General Schoomaker. The answer, first of all, is that we 
are equipping them with the best we have. Again, we are losing 
not only Humvees, but we are losing tanks, Bradleys, Strykers.
    Mr. Taylor. I understand. But we both know a 
disproportionately high percentage of the casualties are in 
Humvees.
    General Schoomaker. And with the kits, we have maximized 
what Humvee can do, and there is little else we can do that 
will change that.
    We are aggressively pursuing the MRAP program. The MRAP 
that the Army and Marine Corps are buying right now are an off-
the-shelf interim solution to a better designed joint vehicle 
for the future so that there is a point at which we want to 
cross over some time in the future as we develop that better 
vehicle and approach buying and replacing this--over 100,000 
vehicles we have with something even better than the MRAP.
    But today, we are providing those soldiers in theater with 
the very best we have, and that is the FRAG kit 5 on the 
Humvee; obviously the add-on armor that we are putting on the 
tanks, Bradleys, and the slat armor on Strykers, et cetera.
    The problem is it is not just a matter of money, it is a 
matter of time and technology and industrial output. We are on 
an aggressive program, and we would like to make it more 
aggressive. That is why we have listed what our unfunded 
requirement is.
    Secretary Harvey. Let me add that the MRAP program is an 
outgrowth of what the Army started a year and a half ago in our 
so-called rapid equipping force. We have about 400 of these 
MRAP type vehicles already in theater. They are used for route 
clearance routinely. As the Chief said, this is the next 
evolution of that. It is an aggressive program. There are eight 
vendors that have been qualified that have submitted two 
vehicles apiece which the Marine Corps and the Army together 
will evaluate those, and then our plan is to-- and this buy 
that we are talking about is the first buy. We will qualify one 
or more of those, whoever qualifies, and then about June of 
this year we will make production awards.
    As part of this demonstration phase we will be assessing 
the industrial capacity of each one of those vendors and 
determine exactly what their capacity is and how rapidly they 
can make these large vehicles.
    So the program is up and running. Its genesis is with the 
Army. As the Chief said, we have the best available technology 
today. This is the next step.
    After the MRAP, we are also developing what we call a joint 
light tactical vehicle. We always tag team with the Marine 
Corps. In this case the Army will be in the lead, just like 
they were for the Humvees. We are starting on that. Our Marine 
Corps partners are doing the MRAP and we are doing the joint 
light tactical vehicle. We will continue, as we have done in 
the past, to evolve the protective capabilities of these multi-
purpose vehicles.
    The Chairman. Mr. McKeon.
    Mr. McKeon. Mr. Chairman, with your permission, I would 
like to introduce a guest who I have here with me today, a 
former constituent, a young man who in high school played 
football for one of my brothers. He joined the Army 14 years 
ago and has spent the last 3 years at Walter Reed. He was 
severely wounded in Iraq.
    He was telling me a story today. As he finished his mission 
the morning he was wounded, he was passing back to his base and 
at the checkpoint ran into his brother who is an identical twin 
who was over there as a member of the guard. He didn't know he 
was in country at the time. He knew he was coming, but he 
didn't know he was there that day.
    Later that day he was wounded. His brother now is down on 
the border in Mexico.
    Sergeant Bain, would you please stand? He is a great young 
man. He will be receiving a medical discharge on the 26th.
    Knowing a young man like that, it makes you proud to be an 
American knowing we have those kinds of people out there 
protecting our freedoms around the world.
    General and Secretary, thank you very much for your service 
and for the things you are doing for the country.
    I have one brief question. That is that we are increasing 
the force size and to meet our proposed end strength increase, 
the Army will need additional funding for recruitment and 
retention. I am wondering if the base budget does include an 
increase in funding for recruitment and retention and to 
support the proposed end strength increase?
    Secretary Harvey. Yes. In the 2008 budget, when the 
President made his decision to grow the Army, we plussed up the 
budget we had at that time. There is moneys in the fiscal year 
2008 budget to increase recruiting and retention. That is 
incorporated in there. Advertising, a few more recruiting non-
commissioned officer's (NCOs) and so forth. All baked into the 
fiscal year 2008 budget.
    I might also note that we have run detailed models of 
forecasting the growth of the Army. If we can repeat last 
year's performance of recruiting 80,000, and I am talking about 
the active, of course, and have the retention that we did last 
year, that we should end up this year in excess of 515,000. We 
should be able to grow the force between 7 and 9,000 a year as 
we go forward if we can repeat the fiscal year 2006 performance 
in the recruiting and retention categories.
    Mr. McKeon. You feel you have enough in the budget to do 
sufficient advertising?
    Secretary Harvey. We do. We feel we are adequately 
resourced. And thanks for that question.
    The Chairman. Thank you very much.
    Mr. Meehan.
    Mr. Meehan. Thank you, Mr. Chairman.
    And thank you, Secretary Harvey and General Schoomaker, for 
appearing before the committee and thank you for your service. 
And I also want to thank the upstanding heroes behind you for 
their service to our country. Particularly the sergeant from 
Worcester, Massachusetts. It is not quite in my district. I am 
not sure the general had the pronunciation correct. I thank all 
of you for your service.
    Obviously, recruitment and retention is a big issue where 
all of us on this committee are concerned. We all support 
increasing the Army by 13,000. Many of us are concerned that in 
many instances our recruitment goals have been as high as they 
were in the past, the past year, for example.
    But I am interested in the question of was--it was my 
understanding that the Army had cut recruiting efforts this 
year by $125 million; is that true?
    General Schoomaker. Not to my knowledge, no.
    Secretary Harvey. You have to look at both the base budget 
and the supplemental to get a true picture of the moneys that 
we use. So you have to add those both together.
    We can get that for the record; I don't have that off the 
top of my head.
    [The information referred to can be found in the Appendix 
beginning on page 74.]
    Mr. Meehan. If you could, Mr. Secretary. It may be it was 
cut by 125 million.
    Secretary Harvey. There could have been--if you have to 
add, as I said, both what is in the base budget and the 
supplemental together to get an idea, and we put them in, both, 
for accounting rules--but we will get you the total number 
between both those components.
    Mr. Meehan. Thank you.
    Chairman Skelton mentioned the issue of statistics 
regarding recruit quality, and I am interested in these waiver 
issues. And let me just say that I couldn't agree with you more 
that the quality and the training, the education, background of 
our men and women in uniform is higher than it has ever been.
    I am going to lead a trip to Iraq on Saturday, and I am 
always amazed at how effective and highly trained our forces 
are.
    But I do think it is important to look at the studies that 
we are given. In 2003, the Army granted 8,836 waivers, a little 
more than 12 percent of total recruits. In 2006, that number 
was over 13,000 which accounted for nearly 20 percent of the 
total recruits. So basically, in four years we went from 
granting some kind of waiver to one in ten recruits to granting 
waivers in one in five recruits. And by 2006, more than 60 
percent of those were waivers of this category, so-called 
``moral waivers.'' what seems to me to be going on--maybe that 
is okay, but in 2003 the most serious types of moral waivers, 
felonies and serious nontraffic offenses, made up about 64 
percent of the Army's waivers. In 2006, 3 years later, that 
number was at 87 percent.
    I don't want to get into all of these statistics that are 
in this particular report, but I do ask, Mr. Chairman, 
unanimous consent that the data provided to me by the Acting 
Deputy of the Under Secretary for Military Personnel Policy be 
entered into the record.
    The Chairman. Without objection.
    [The information referred to can be found in the Appendix 
beginning on page 71.]
    Mr. Meehan. And I would agree, Mr. Secretary, that we need 
to give people a second chance, sometimes a third chance. So I 
don't question that. And there are many instances where I have 
come forward with somebody that I know from my district, who 
made a mistake or maybe two, and I think they deserve a chance.
    But the question is this: When we are under incredible 
pressure to get more recruits and the recruiters, to be 
effective, they have to increase the numbers, and the 
difficulty and recruiting environment being what it is with 
deployments and redeployments, the question is whether or not 
we are putting safeguards in place. And we may be. But are 
there safeguards in place to ensure that the reality of these 
statistics, what it means in terms of not only the recruits 
that are coming in, but what are we doing to effectively make 
sure that it isn't getting too high, are we analyzing that, 
looking at the--you know, I have a law enforcement background--
looking at the ramifications of those offenses and what it 
means to the future of our military?
    And, again, at the outset, the most effective, well-
educated fighting force in the history of the world; and I 
believe in second chances and even third. But we have to look 
at the data and the statistics and determine how that affects 
our recruiting, the pressure that is on the recruiters and 
whether or not we need some special programs to deal with these 
new recruits.
    Secretary Harvey. As I mentioned, Congressman--I mean, your 
concerns are absolutely right on the mark. I have the same 
concerns. And, therefore, as I mentioned, we have in those two 
serious categories, an individual cannot be assessed unless the 
general officer reviews that particular individual one at a 
time and approves it, both for the drug and alcohol and the 
serious misconduct category. So we have a check there.
    And then as far as the other categories of the medical and 
the minor misdemeanor, they have to be approved by a battalion 
or brigade commander in the recruiting command. Then, once they 
are assessed, we track them in terms of whether their attrition 
rate--that means they drop out during basic training and the 
advanced individual training--between those two components we 
track whether or not there is abnormal attrition because, you 
know, we are really--if that is the case, we are wasting money, 
and so we certainly don't want to do that.
    So we--I think we have enough checks and balances in the 
system to ensure that that doesn't happen.
    And then, of course, once they get to their unit and you 
know they are under their platoon sergeant and under the 
command sergeant majors, you know they have to perform again, 
that is another change because, you know, the strength of the 
Army is the strength of the NCO, and our NCO corps in terms of 
their leadership and discipline is just unrivaled.
    So I think there are enough checks all along to ensure that 
these people have, in fact, changed their life around. We have 
given them a second chance and they have proved that they have 
taken it.
    So I feel very confident that we have it. And as soon as we 
see trends the other way, we will reassess that.
    The chief and I meet every month with the entire leadership 
of the accessions command, top to bottom. We review the monthly 
results in all dimensions from quality, from--you know, the 
capacity, the capability, the quality, the effectiveness of our 
recruiting programs. So we are really into the details, believe 
me, because this is, as we all know, the quality of the force; 
and the fact that it is all volunteer is very important to the 
country.
    Mr. Meehan. Thank you, sir.
    The Chairman. Mr. Cole.
    Mr. Cole. Thank you very much, Mr. Chairman.
    If I could first thank you both and thank particularly 
General Schoomaker for your outstanding service. It has been a 
pleasure every time I have had a chance to interact with you 
and hear you testify. You have been a great American soldier.
    If I may, two areas I would like to focus on, Mr. 
Secretary: First, I would very much appreciate your remarks 
about funding the BRAC process. I know a number of us voted 
actually against the continuing resolution because that had 
been stripped out of it, and I think many of our colleagues who 
voted for it, had they had the opportunity to vote separately 
on that item or amend it, would have certainly restored those 
funds. So I am hopeful, going forward, we could find a way to 
do that.
    But could you tell us in some detail, perhaps mentioning 
specific installations, if you like, or whatever what the 
impact will be if that does not occur?
    Secretary Harvey. Well, you know, in this regard there is a 
near-term impact and then there is, you know, a cascading 
effect which will impact what is planned in outyears. 
Specifically, in Fiscal Year 2007, there are a number of 
training ranges in the Fiscal Year 2007 BRAC. There are a 
number of training barracks, there are a number of family 
centers, quality-of-life-related projects that would be--that 
would be impacted if, in fact, the numbers that we have are--
that the Army BRAC funding could be reduced by two billion 
dollars. And I think I mentioned that in my opening statement.
    So we have a list of specific projects. We can submit that 
for the record with the details. Believe me, we know this in 
many details, but it is in those general categories of quality 
of life, training ranges, training barracks and so forth.
    [The information referred to can be found in the Appendix 
beginning on page 75.]
    Mr. Cole. If I may ask you on a different subject, but sort 
of a similar thrust. I am very pleased to see your request on 
the future combat system what you are asking for. I know we 
used that as a little bit of a cost saver last year. We didn't 
give you everything that you asked for in terms of funding. I 
know that impacts your ability to move ahead on a really 
critical program of modernization.
    So I would ask you, relating to the future combat system, 
what would be the impact if we did not fully fund your request 
in terms of meeting your goals and time line? And then one very 
parochial question because Fort Sill is in my district, I am 
always interested in the--I have got a lot of soldiers that 
want a new platform. If you could address that, I will be very 
grateful.
    Secretary Harvey. We won't ever touch it. No, seriously----
    Mr. Cole. I will take that as a commitment. Thank you very 
much.
    Secretary Harvey. There has been--very unfortunately, there 
has been almost $800 million in cuts to the program. And that 
is really the primary reason why we made the decision to reduce 
the number of our systems, the number of total manned and 
unmanned systems, from 18 to 14. And we did that in order to 
fit the financial profile and to be able to--to start to spin 
out the technologies and the current force, and also to be able 
to--in the future, to be able to deploy a FCS brigade combat 
team. We had to delay that a year, and then we had to reduce 
the scope.
    Now--and we didn't cancel those other four programs. We 
just, in a sense, delayed them for reconsideration because in 
our modeling simulation, 14 is not as good as 18; it is a 
different capability. The core capability, we believe, is 
maintained, but we may in the future, depending on as we 
advance and get lessons learned and do our gaming, we may come 
back and then try to restore those four systems.
    We have kind of deferred them. We haven't canceled them, 
but we are trying to fit a financial profile. We are trying to 
look at the reality of what is going on. We didn't have enough 
money to continue those, so put those on hold and kind of 
reprogrammed the action.
    I just can't emphasize how important this program is to the 
future of the Army. We have done many analyses in 
preinsurgencies and insurgencies, and the FCS clearly brings 
superiority and specific operational and technical advantages 
to the counterinsurgency.
    We recently had an event in Iraq called Black Sunday, which 
happened in April of 2004, in which a platoon was providing 
convoy security in Sadr City. It was attacked by insurgents. 
Two soldiers were killed, a number of Humvees were destroyed.
    A battalion went on a rescue mission. It took them three 
hours and three attempts, because they couldn't find them, they 
didn't know where they were. They didn't know what streets were 
blocked. Six more soldiers were killed and 50 more were 
wounded: Black Sunday, Sadr City, April 2004.
    We took the scenario and then did a model simulation with 
FCS capable and FCS unit of action in our model and simulation 
labs in Fort Knox and For Leavenworth. Zero soldiers are 
killed, zero wounded. It took one hour, not three hours.
    I know that is a war gaming exercise, but that is an 
important indicator that FCS saves soldiers' lives because it 
keeps them mounted in a close fight longer, and it gives them 
what it is like to see first and act first. And we are going to 
be running a series of these exercises, taking insurgency- and 
preinsurgency-type operations. Here is what actually happened 
and here is what will happen with an FCS-capable force. Very 
informative.
    I would be more than happy in the future--we did this one; 
we are doing four more--to update you and the committee on 
that. We think this is the capability for the future.
    Mr. Cole. I thank you.
    General Schoomaker. If I could just add a little, a little 
bit different twist, while the 15 FCS brigades that are 
currently projected aren't the only thing that the Army 
benefits from. The FCS program also has technology spinouts 
onto the current force, and what you--what FCS really is is a 
modernization strategy that enables the entire force, not just 
the 15 FCS brigades, robotics precision, situational awareness, 
UAV sensors. All of these kinds of things enable all of the 
other brigades in the Army, as we spin this out; so that is a 
very, very important component of what we are talking about.
    And quite frankly, you know, if you were--you asked what is 
the impact. If we don't continue pursuing this future strategy 
of modernization, what we will do is continue to chase our tail 
like what Congressman Taylor is talking about. We will be 
trying to upgrade legacy things beyond their abilities to keep 
up with the adaptations that are taking place on the 
battlefield today. And so this is very important.
    The second thing is, when you compare the expense of going 
for the technologies, the expense of carrying legacy systems 
into the future and trying to maintain these aging hulls and 
aging systems and all of that manpower, that is not displaced 
by technology so it ends up being much more expensive to take 
the legacy Army forward than it does to invest in the future 
and get the advantages that the technology brings to us.
    So it is fundamental to the future of the Army, in my view, 
and I don't think we can overstate how important it is and we 
continue to pursue that.
    The Chairman. Mr. Reyes.
    Mr. Reyes. Thank you, Mr. Chairman, and before I address 
the Secretary and the General, is there a possibility that we 
could do just a full hearing on FCS, because I think what we 
are hearing here is vitally important; and I know in reading 
and being involved with it----
    The Chairman. In answer to the gentleman, we can either do 
it in full committee or within the proper subcommittee. Good 
idea. That falls into the category sometimes, Mr. Reyes, of 
what Mark Twain meant when he said, the more explained to me, 
the more I don't understand.
    And I have asked the Secretary and the General questions on 
the FCS in the past, and it may be a good idea to follow 
through on your suggestion.
    Mr. Reyes. I think it would be a good idea. And can I have 
my full five minutes now?
    Thank you very much.
    Mr. Secretary, thank you for your recent visit and all of 
your visits to Fort Bliss in White Sands. They are very 
important to our region and to the men and women that serve 
proudly there. We appreciate that very much.
    And, as well, you, too, General Schoomaker. I regret you 
are going to be leaving in April. But thank you for the times 
you have come out to El Paso, Fort Bliss, White Sands, and for 
your leadership--both of your leaderships in the FCS program, 
because in my visits to Iraq and, to a lesser extent, 
Afghanistan, because it is a different environment, but 
certainly to Iraq and Baghdad, if we had some of those 
capabilities that FCS--the FCS program represents, it would 
make a huge difference, I think, in our ability to carry out 
operations there.
    I know in discussing some of the challenges that our troops 
face there, it really, I think, underscores why this is a 
program that we have to pursue.
    So you have my full support on it. And, hopefully, we will 
have a hearing exclusively on FCS.
    I have a question, General Schoomaker, on the President's 
proposal for the increase of 20,000 troops, 21,000 troops into 
Baghdad. And the reason I ask you this question is to better 
understand whether or not we are able to do these kinds of 
things and, in particular, these five brigades.
    As I understood it, when the President announced it, the 
82nd got orders to go in right away. Were they fully 
operationally equipped, all of the armor, all of the necessary 
equipment that they needed when they started into Iraq?
    General Schoomaker. When they entered Iraq they were.
    Now, there were things that had to be done during the 
reception, staging, onward=movement and integration (RSOI). I 
process the reception staging integration process that takes 
place in Kuwait. But the brigade that you are talking about was 
sitting in what we call our roll back (RB) status, so they were 
in an elevated status level of readiness to respond and they 
did. But they were ready to respond worldwide, not just to 
Iraqi kinds of situations, but to other things; therefore, when 
they were sent, they would be focused on where they were. They 
have joined their equipment and, in fact, crossed the berm 
ready?
    The--you called it the President's ``proposal'' to add 
20,000 troops. It is not a proposal when it comes to us. It is 
an order to certify brigades, and that is what we are doing. We 
are on the supply side of the issue. The feeder has an 
operational plan that required these additional forces, and our 
job is to provide them, and we are doing it to the best of our 
ability.
    Mr. Reyes. When you say to the ``best of our ability"--and 
I ask this question based on a number of people who have 
expressed concern that we are having to scurry to bring all of 
these four additional brigades up to full, equipped 
capability--how much time is it going to take and what kinds of 
shortfalls are there that we are having to scurry to fulfill?
    General Schoomaker. First of all, we are in an unclassified 
setting here, so I am going to be nonspecific. But again, I 
testified previously that I was concerned about the strategic 
depth in the Army. We are now supplying more; therefore, we 
have an additional challenge on the strategic depth.
    Obviously, we are not going to put any force into theater 
that isn't properly trained and equipped. Therefore, ``scurry'' 
is a kind word in terms of, you know, the machinations we go 
through to make this happen. But there are some issues, but 
they are not critical issues, and our estimation is that we 
will be able to provide the surge forces in the time that the 
theater has asked for them, and they will be properly trained, 
led and equipped when they arrive.
    Mr. Reyes. And the last question: You are in full agreement 
with this strategy----
    General Schoomaker. I am in full agreement.
    Mr. Reyes [continuing]. For the additional brigades?
    General Schoomaker. I provided my advice at the time the 
advice was asked for. I did that. You know, I don't talk about 
the advice that I give to the President of the United States, 
but he has made a decision and we are now executing it.
    Mr. Reyes. Thank you, General, and thank you Mr. Secretary.
    Thank you Mr. Chairman.
    The Chairman. Thank you, Mr. Reyes.
    Mr. Kline.
    Mr. Kline. Thank you, Mr. Chairman. Thank you, gentlemen, 
for being here.
    And, General, I will add my thanks to everybody else for 
your many years of terrific service and make the comments with 
your second retirement coming up, I feel even older as there 
are very few soldiers and Marines left serving that I have felt 
proud to call my contemporaries through those many years of 
service, and I really am feeling old today.
    But thank you and God bless you and Godspeed.
    I have a small nit to pick here if I could--I think with 
you, Mr. Secretary.
    Last year we had asked my former colleague, Congressman 
Gutknecht had inserted into the Defense Authorization Act a 
request for a report on the impact of an assignment incentive 
pay issue having to do with the national guard.
    It seems that if your previous service was in Kosovo, you 
were treated in one way; if your previous service was in 
Bosnia, you were treated another way. It impacts around 400 or 
so guardsmen in Minnesota, and so this is my appeal to you to 
please check on the status of that report which was frankly due 
more than six months ago and see if you can come back to us on 
that issue. It is an unanswered question in the State of 
Minnesota.
    Secretary Harvey. I can blame it on the staff, because I 
have never seen it.
    Mr. Kline. I was sure that you hadn't seen it. The rascally 
staff will do it. But if you could get that in, I would 
appreciate it.
    [The information referred to can be found in the Appendix 
beginning on page 76.]
    Mr. Kline. A question and a comment, I suppose, on the 
increase in the end strength of the Army, something that I have 
certainly been begging for and calling for, along with our 
chairman and former chairman. I think it is absolutely the 
right thing to do.
    I appreciate very much, Mr. Secretary, your comments on 
looking at some of the waivers and so forth, but what I want to 
ask about is the recruiting effort and recruiting budget.
    I haven't looked at the number and gone that far down. But 
I would hope that we are putting enough money in that effort, 
as my friend and colleague and former commandant of the Marine 
Corps used to say, ``The all-volunteer force is an all-
recruited force.'' I understand that. I know that you do. That 
means when you are increasing the requirements for the 
recruiters, you have to increase their budget and their message 
and hire somebody to make good ads and all of that sort of 
thing.
    Are we----
    Secretary Harvey. I am absolutely confident. As you know, 
we changed our advertising campaign, advertising slogan, ``Army 
Strong.''
    Mr. Kline. Congratulations.
    Secretary Harvey. So there is an example of what we are 
doing and the many initiatives that we take. I have not a very 
good reputation with our financial management people because if 
any time in this monthly meeting somebody comes in and asks for 
money, they get it. And the order is, if you have to reprogram, 
program, program it, make sure it is in the budget.
    So we don't want to be pennywise and pound foolish when it 
comes to this, and that is a fundamental principle that I have, 
and we have reprogrammed much money in--just as of last week. 
The guard identified some additional moneys they want; they 
will get it. So we are very, very sensitive and conscious of 
the need to do that.
    We were highly successful last year. We recruited across 
the three components 175,000 soldiers. It is important that we 
do that.
    So the chief and I have our hands very, very tightly on 
that, and we are not going to not do anything. In that regard, 
we are also growing the officer corps, and we are going to 
increase the number of reserve officer training cadet (ROTC) 
scholarships. We have a lot of initiatives going on. You can't 
grow the Army. You have to grow and develop leaders. So all of 
those things are really pieced together.
    And just to Mr. Cole's comment, we also have to provide the 
barracks and all of the rest of this stuff. So as you grow the 
Army, you had better have the basing and you had better have 
the barracks and headquarters so that, all placed together, 
they are intimately related and we manage that as an integrated 
whole.
    Mr. Kline. Two final comments very quickly--and, General, 
if you have something to comment: I share Mr. Cole's concern 
about whacking the defense budget on this BRAC MILCON, and I 
certainly hope we will rectify that. I know he and I and many 
members of this committee have been working very hard to do 
this.
    And then the other thing is, if you run into difficulties, 
if you are recruiters and your selection officers start running 
into difficulties on access to campuses and other places where 
they need to go, I hope you will communicate with us. That is 
absolutely unacceptable.
    General Schoomaker. If I could add a couple of things here: 
First of all, we have a very, very tight-knit plan to grow the 
Army, and it is very dependent upon the facilities that are 
inside that BRAC, the $2 billion that right now is in question 
in BRAC; and without that money, it is going to be very 
difficult. Remember, the BRAC and our MILCON was all put 
together before we were going to grow the Army, so now we have 
an added burden to make sure this thing comes together quickly.
    The second point I would like to make, as the chairman has 
said, he said Ted Stroop in 1994 talked about growing the Army 
by 40,000. The Army today--active, guard and reserve--is only 
40 percent of the size it was at the end of the Cold War. And 
so when Ted Stroop was talking about growing the force, the 
force was much larger than it is today.
    The third point I would like to make is that, again, we 
have talked many times about the challenge we have 
democratically in the country. Only 3 out of 10 young men 
between the ages of 17 and 24 can qualify for all of the 
criteria to join the Armed Forces today. It is a very 
competitive market out there, and I would be very surprised if 
we are not--in fact, I know of nowhere we are not being 
supported fully to compete both in advertising and in 
incentives and all of the rest of the stuff out there to 
recruit, because it is a very demanding market. The challenge 
is very big.
    The Chairman. Dr. Snyder.
    Dr. Snyder. General Schoomaker, one quick question and a 
little longer question.
    I am somebody who in Vietnam took advantage of the GI Bill 
and I enlisted for 2 years in the Marine Corps and got out 
early and still got 45 months of GI benefits.
    I have a couple of Iraq war veterans on my staff, both Army 
Reserve. One would like to go to graduate school, but he came 
back from this mobilization for almost 18 months in the first 
run-up to Baghdad and now is out of the Army Reserve. He gets 
zero educational benefit.
    A lot of us feel that the reserve component GI bill was 
really established for a peacetime situation. Do you share the 
concerns of Members of both the House and the Senate that we 
need to revisit this issue on losing the educational benefit 
once they are out of the reserve component?
    General Schoomaker. I am sorry to say that I am not as 
informed as I ought to be on exactly all of the benefits in 
that.
    Dr. Snyder. Let me do that as a statement for the record. 
Would you be up to speed on that? That is an important issue.
    [The information referred to can be found in the Appendix 
beginning on page 74.]
    Dr. Snyder. I want to get into the bigger issue on this 
debate that we have got going on now. I was watching some of 
the speeches yesterday. Mr. Murphy did a very eloquent job in 
support of the resolution that is on the floor as an Iraq war 
veteran. Mr. Wilson did a very eloquent job as a proud father 
of four sons that we are all proud of.
    I would say Mr. Cole gave a very articulate speech, but he 
kept referring to Stephanie Herseth in the Speaker's chair as 
``Mr. Speaker,'' but aside from that----
    Mr. Cole. I was nervous.
    Dr. Snyder. Here are my concerns with the resolution I am 
still trying to sort through my thinking on.
    It is a very simple resolution that says the Congress 
disapproves of the more than 20,000 troops being added. And you 
expressed your views earlier. It seems to me the part that has 
been working is the military component. The part that we are 
all struggling with as a nation is the nation-building 
component of it.
    And when it came out recently that the State Department 
asked the military to help fund their State--or supply their 
State Department staff, because they can't get people in these 
jobs in Iraq--what a damning of this country that here we are 
in the fourth year of the war and we can't get people over 
there to do the nation-building of it. We have problems with 
the diplomatic side of it. We have problems with the 
contractual side of it, where all of the money is going for the 
rebuilding. General Eikenberry was talking about the ongoing 
need for roads, roads, roads in Afghanistan.
    And so my question is--and I think Mr. Kline has asked 
about this question before--how do you see--you are winding 
down here now for the second time in your military service. A 
lot of us have great concerns about the support from the rest 
of government, the nonmilitary part of our government, that you 
all are getting in the work that you are doing overseas. Do you 
have any comment on that whole issue? I guess you are calling 
it interagency cooperation.
    General Schoomaker. Well, first of all, in shorthand, we 
use the acronym DIME--diplomatic information and military 
economic--as kind of the shorthand describing the elements of 
national power. And I believe that you are correct; I think 
that as a military we have delivered and continued to deliver 
with these young men and women in super fashion.
    It is no secret that we are frustrated by the difficulties 
of getting coordinated effort out of the other elements of 
national power. I also know this has been a subject of numerous 
discussions, meetings, debates, and I know that the leaders in 
these other elements are working hard, trying to figure out how 
to transform for the kind of world that we are in and the fact 
that they have had almost----
    Dr. Snyder. Have had almost four damn years, General.
    General Schoomaker. I am just telling you that I am as 
frustrated as the next person, and that as we go forward and we 
look at the strategic situation that we face, it is going to be 
absolutely essential that we get this right because this is the 
nature of conflict in the future.
    Dr. Snyder. You are winding down your career and on April 
10th, April 11th, you may have some additional thoughts that 
you may want to provide to help this committee along. Because I 
appreciate the role that you play and believe in the civilian 
control of the military.
    But we have got some work to do because the other aspects 
of government are holding you all back in completing your 
mission, and we cannot tolerate that as a nation.
    Secretary Harvey.
    Secretary Harvey. I was going to add that it certainly 
doesn't apply to this committee, who is a very generous 
committee. And I am not implying any criticism because I don't 
know the details, but one thing is for sure: If the other 
elements, the other parts of the interagency are to 
participate, they need the resources to do it, and the resource 
question, at least in the way we are informed, is always a 
barrier.
    So, you know, I don't know what the interaction of the 
other elements of government were there, authorizing in the 
appropriations committee. We only know the generosity of this 
committee.
    I think the entire legislative and executive branch have 
got to get together and say, okay, what do you need and here 
the resources. I mean, tell us; we sit in this Chamber and we 
are asked, tell us what you need, get back to us. I don't know 
what goes on in the other committees, but I think it is going 
to be a partnership between the executive and legislative 
branch that solves this problem because, to your to your 
observation, it is 4 years. So resources are an important 
ingredient in all of this.
    The Chairman. Dr. Snyder, it is interesting that over a 
year ago I raised this very issue at the White House and 
received assurances from the Secretary of State that she would 
fix it, using her words.
    And I see we still have that problem continuing, that the 
burden falls on our military which can do things and getting 
other agencies, A, over there and B, involved to do their job 
is often very, very difficult.
    I appreciate you raising that issue.
    Dr. Snyder. Can you imagine what General Schoomaker's 
reaction would be to hear one of your comments be, hey, by the 
way, I am going to be a third or half short in the personnel I 
need even though we are in the third or fourth year of this 
war? It would not be tolerated.
    The Chairman. Thank you.
    One other comment: Mr. Cole mentioned the BRAC process. 
This will be covered and, as we understand it, fully funded in 
the supplemental that is upcoming. And I know we are all 
interested in following that because it means a great deal to 
our military to do that, and we are going to--we are assured 
that will be covered in the upcoming supplement. So we will 
look forward to that in a positive vein.
    Thank you for mentioning that. I appreciate your comments 
on that.
    Mr. Wilson.
    Mr. Wilson. Thank you, Mr. Chairman. And, Mr. Secretary and 
General, thank you for being here today. I appreciate the 
reference by Dr. Snyder. I am very proud that I have three sons 
in your command. And each one of them is a better person 
because of the training they have received, the opportunities. 
One served in Iraq for a year, another in Egypt, and again it 
has just been very meaningful to our family.
    Additionally, I am very grateful. I represent Fort Jackson. 
General Schwitters and his team are making such a difference 
for the young people who are serving there.
    I also have had the perspective of being a member of the 
Army Reserves and Army National Guard for 31 years. And as I 
visited with our groups in Iraq six times, Afghanistan twice, I 
am always impressed by the new greatest generation. These young 
people are so dedicated, so capable; and thank you for what you 
do to help train them to protect our country.
    I do share concerns as Congressman Reyes. As we are 
discussing the reinforcements for General Petraeus, it has been 
stated that our troops do not have body armor. They don't have 
proper uparmored Humvees or even helmets. I would like again a 
restatement--indeed, the persons outside the wire, people who 
are in harm's way, surely family members need to know that 
their young people are fully equipped.
    Secretary Harvey. Let me answer that.
    We have a detailed process by which we identify the 
equipment needs of deployed and deploying forces. We refer to 
it as the Army Resource and Requirements Board process, 
involving high levels of three-star generals in the Army staff.
    The needs of the five brigades that are part of the so-
called surge have been evaluated, analyzed, and I can assure 
you that they have--they will have all of the force protection 
equipment required when they enter into the theater of 
operation.
    We have identified that there are approximately 500 medium 
and large trucks which they will be short of, but we have 
talked to the commanders in theater. There are 8,000 of these 
trucks in theater, and we will be able to share and cross-
level, so you will not have any impact on operations; and those 
trucks will be made available in the June time frame.
    So we have a great detail on the equipment needs of every 
deploying unit. And they do not enter the theater or the area 
of their responsibility. They may be following in on equipment. 
So when they get to wherever they are assigned to, they are 
fully trained, fully manned and fully equipped. And we follow 
that intensely.
    General Schoomaker. When it comes to personal soldier 
equipment, I can absolutely guarantee you that we have not only 
manufactured, but we have issued sufficient equipment for every 
soldier. Not only those that go outside the wire, but those 
that are inside the wire have body armor, they have the 
advanced combat helmet, they have the proper first aid kit. 
They have everything that--I mean, they have the very best that 
we have ever issued.
    And, in fact, I think I am reaching, but what I would like 
to give you for the record is what we have manufactured, what 
we have issued and what we have, but I just--because I know it 
is something like over 600,000 individual sets of this 
equipment. We are in a totally different posture today than we 
were even 3 years ago in terms of what personnel equipment is. 
This is the very finest body armor that can be manufactured; 
and I won't talk about it, the specific characteristics of it, 
here because it is classified, but let me tell you it is the 
best I have ever seen.
    [The information referred to can be found in the Appendix 
beginning on page 75.]
    Mr. Wilson. I know the family members appreciate it.
    The Army National Guard is undergoing the largest 
deployment ever. The 218th is going to Afghanistan to train, 
and it is my former unit.
    What are the prospects for training the Afghan Army? Is it 
positive?
    General Schoomaker. I was just over there at Christmas 
time. Went through their training centers, their academies. I 
think it is fantastic what General Durbin and the Afghan 
National Army are doing, and they are performing very well on 
the battlefield. They are--they are receiving their equipment, 
the training is first class, and I think it is quite a model.
    Secretary Harvey. Let me also add that General Durbin was 
back in the building last week, met with both the chief and 
myself. Talked to him at length. He has made tremendous 
progress in capacity and capability.
    He is also in charge now of the Iraq--excuse me, of the 
Afghan national police, standing them up. There is currently on 
the order--these are round numbers--of 100,000 security forces 
between the army and the police on their way to about 150,000. 
And he has a detailed plan. As a matter of fact, in the Fiscal 
Year 2007 or Fiscal Year 2008 GWOT request there is $5.8 
billion for the Afghan security forces because he is really--he 
has really increased the number capability.
    They have got the proper infrastructure, they have got 
academies, they actually have a mini-West Point. They are 
really making great progress.
    The Chairman. Ms. Sanchez.
    Ms. Sanchez. Thank you, Mr. Chairman, and thank you for 
being before us today.
    When Secretary Gates testified before us last week, he 
said--aside from Iraq and Afghanistan, he pointed out several 
other concerns, global concerns, that he had, including Iran, 
North Korea, China, and Russia. In looking at the Army's 
budget, I am trying to understand, in your base budget, how 
much is that dedicated toward the situation we have in Iraq and 
Afghanistan and how much is demonstrated to these other global 
concerns? And in the proposed war budget, is that all just for 
Iraq and Afghanistan or do we have some contingency for the 
global concerns in there? And for the supplemental war budget, 
what would be the breakdown?
    The basic question is, should something else get out of 
hand, are we going to be able to handle that from a financial 
standpoint in the budget that we have before us, or will we 
require another supplemental to do something, if something 
happens in North Korea, for example, or one of these other 
places that Secretary Gates was talking about?
    General Schoomaker. Let me start, and the Secretary can 
give you some specifics.
    In general, the base budget is designed to fund the Army 
for the full spectrum of responsibility that we have, not just 
for Iraq, Afghanistan and global war on terror. The 
supplemental funds are principally designed to fund the level 
of operation reset and the kinds of things we are doing.
    So I would say, as a general rule, and we would have to 
look very carefully, but I think that I am absolutely correct 
in that regard.
    Ms. Sanchez. Are you saying that the base budget is just 
for our standing Army, regardless, and then our supplementals 
and our war supplementals budget are for Iraq and Afghanistan 
in particular?
    General Schoomaker. The base budget is designed to fund the 
Army on a consistent basis for what the Army does across all 
requirements, to include Iraq and Afghanistan and to include 
funds if something happens in another arena.
    The supplemental obviously is written by things like reset 
and the levels of operation over there. The budget today is 
going to produce things several years from now. I mean, one of 
the things that we have to understand is, there is latency in 
the system dollars we drop today to produce things and produce 
results in 18 months, 3 years from now.
    So we largely are going to deal with today's problems with 
what we have today. And I have testified that I have my 
concerns about the strategic depth of the Army.
    I also know that the Chairman of the Joint Chiefs of Staff, 
in coordination with the rest of us chiefs, has submitted his 
risk assessment, which is classified. And it is here on the 
Hill, so you can read in detail about where those risks are. I 
know the Secretary of Defense also has to submit a mitigating 
strategy for the Chairman's risk assessment.
    So what I am saying here is, what we are dealing with today 
we are dealing with investments that we made previously. What 
we are talking about today in terms of the future will produce 
future results and it really now falls into kind of a 
classified realm. And I know it is available to you, and if you 
would look at it, it would give you some insights into 
specifically where you are.
    Ms. Sanchez. If you could let me know where the documents 
are, so I could take a look at that. I am concerned from the 
fact of what if something flares up, how are we going to fund 
that, or are you going to have to come back to Congress for 
immediate funds of the sort?
    General Schoomaker. I think if there was another operation 
that went up, there would be additional funding needed to do 
that.
    Secretary Harvey. One of the major challenges that I talk 
about and the chief talks about all the time is what we call 
``achieving full spectrum readiness.'' if you look at the 
spectrum of conflict, the focus in Iraq and Afghanistan is what 
is referred to as an insurgency, but you are talking--in many 
cases, the countries you talked about have the potential for 
major combat operations.
    We know in very great detail what equipment, training, and 
manning we need to have a capability for full spectrum. And 
most of that, with some exceptions, is in the base budget. So 
if you look at the budgets over the last number of years up to 
2013--Fiscal Year 2013--and we can provide this detail--we have 
a total of $156 billion in the equipment realm to close many of 
the things you heard about in terms of the national guard and 
reserve. So there is a lot of money in the base budget to give 
us that full spectrum readiness.
    Generally, the one-timers associated with the war or in the 
supplementals are in the GWOT request. But generally, that is 
the case. If there was another war, then you would have--you 
would need a supplement or a request like that because the day-
to-day costs are not in just the equipment. So--when you 
deploy, you have the day-to-day costs so you would need 
something like that.
    The Chairman. Before I call on Dr. Gingrey, let me follow 
through, if I may, on that.
    Actually, when you talk about full spectrum readiness, it 
is really a two-pronged affair: conventional and 
counterguerilla or counterterrorism?
    Secretary Harvey. That is correct, Mr. Chairman.
    The Chairman. And somewhere along the line--I won't take 
the time right now; I will reserve my questions--I would like 
for you to go into the efforts, not just the educational 
efforts which I am familiar with, but the training efforts on 
the counterterrorism, counterguerilla. But I will ask you that 
later.
    Dr. Gingrey.
    Dr. Gingrey. Thank you. Secretary, General Schoomaker, I 
thank both of you for your service and I congratulate General 
Schoomaker for his distinguished career and congratulate him on 
his retirement.
    Mr. Chairman, I am glad this question of base budgeting 
came up, because I wanted to make a comment in regard to the 
BRAC issue and that was mentioned a little earlier by several 
of my colleagues. In fact, you know, that was a situation of 
taking from the base budget, the 2007 base budget, something 
like $2.5, $3 billion and saying, we are going to spend that 
money on something else that seemed to have a higher priority 
in this so-called continuing resolution.
    I don't question some of the needs there, but I certainly 
question the priorities.
    So now we are looking at a situation where funding that 
needed BRAC money will be in an emergency supplemental, which 
to me seems a little inappropriate. Of course, none of us would 
vote against that, I don't think, on either side of the aisle. 
So it is a good opportunity to say that we need to watch these 
base budgets pretty carefully when you start shifting money 
around.
    My good friend, Dr. Snyder, brought up some real legitimate 
concerns in his line of questioning concerned with the other 
agencies, and I would like to point out--he wasn't actually at 
this meeting this morning, but a Deputy Assistant Secretary of 
State--I believe her name was Mrs. Barbara Stevenson--for Iraq, 
pointed out to us that these provisional reconstruction teams, 
something like 66 out of 67 slots had been filled and are 
actually--some of these people are already embedded with the 
troops as we had this temporary increase.
    So certainly we have got some concerns, but where--I think 
we indeed are addressing those.
    My question specifically was about medical personnel; as a 
physician member, I am very concerned about that. I was out in 
Bethesda recently visiting with a Navy corpsman, Dustin Kirby, 
who was shot in the face by a sniper as he was trying to save 
the life of, as he put it, one of his Marines. As he put it, 
Mr. Secretary and General Schoomaker, we know how important 
they are, and it is not just physicians, but these medics and 
these corpsmen.
    What are we doing to increase recruitment and retention of 
these very, very vital individuals?
    Secretary Harvey. To my knowledge, we do not in the Army--I 
can only speak to the Army. In the Army we do not have a 
shortage of the medics. You know, their military occupational 
specialty (MOS) number used to be 91 Whiskey; now they have 
changed it to 68 Whiskey. But to my knowledge, we don't have a 
shortage of those. And one thing we are doing in the training 
arena, both to enhance the quality of training and also to do 
that in the most efficient manner is that the Army, Navy, and 
Air Force are consolidating training of the medics down at Fort 
Sam Houston.
    So all of the medical service and support personnel will be 
trained there, which is a quality and, I think, an efficiency 
point of view. If there is--we will certainly get that back for 
the record.
    But from my personal knowledge, we are okay in terms of 
that capability which, as you noted, is invaluable on the 
battlefield and back here at home. They are very talented and 
extremely dedicated individuals who take care of our wounded 
day in and day out, and they do it in an enthusiastic manner 
and they keep the enthusiasm and positive attitude of the 
soldiers up.
    So I totally agree, it is a very important group of people.
    General Schoomaker. If I could address very quickly the 
combat medics; the combat medic of today is totally different 
from the combat medic of yesterday. And the 91 Whiskey, which I 
now believe is 68 Whiskey, trained at Fort Sam Houston where we 
have a massive system down there which is world class. It is an 
emergency medical technican (EMT) certified medic, the 
equivalent of what you have in emergency medical service in 
major cities, and they maintain their national certification. 
They have to be recertified every two years. This is a very 
high-quality medic.
    Below them, the individual soldiers, we have what is called 
a Combat Lifesaver Program, and it is our goal to maximize 
within a platoon--for instance, every individual that goes to 
combat have lifesavers, which is largely taught at their 
institution. And when you take a look at the equipment that the 
individual soldier carries today, the individual first aid kit 
with the special bandages, one-arm tourniquets and things, it 
is a very sophisticated first aid kit compared to yesterday.
    People ought to feel very good about the direction we are 
going in this regard, and I think it is a world-class program.
    Dr. Gingrey. And I agree. Thank you.
    The Chairman. Thank you.
    Mr. Cooper.
    Mr. Cooper. Thank you, Mr. Chairman, and thanks to the 
distinguished witnesses. I am grateful for your service for the 
Nation. I have been on this committee for four years now. To be 
frank with you, I am pretty worried. I am worried that the 
chief casualty of the world in Iraq is a broader transformation 
of our Nation's military because I think a lot of changes are 
probably overdue.
    I look at the testimony, not only today, but in prior 
years, and I think we are probably better at interservice 
rivalry than we are at reforming our procurement process so we 
can get the equipment we need on time. I am a little bit 
worried that we are better at bureaucracy than we are at 
understanding the nature of the enemy.
    One chart, on page three, the defense allocation by 
service, which basically shows level percentages for each 
service for the last half century, and that looks to me like an 
unresponsive military system when we have been unchallenged at 
air and sea for a half century.
    The Army infantry is taking 96 percent of the casualties 
and has for the last half century. So I am seeing--what worries 
me is kind of an unresponsive military system.
    I am not faulting you. That may not be humanly possible 
within today's system, but I want to explore with you and with 
your successors ways of making our military a little bit more 
agile and responsive to the threats that we are seeing today, 
because I think that our enemies probably only rejoice at 
seeing the level of funding percentages like that, knowing each 
bureaucracy has its needs in place whether we have that 
hardware or not.
    In World War II we were able to be the armory of the world, 
and now we have one manufacturer of one uparmored Humvee in 
America. Is that meeting the need?
    To me, there is so much more to reform this process so that 
we can supply the military with absolutely everything that they 
need. I know it is a broad set of points and questions, but I 
will be happy with any response.
    General Schoomaker. I will be the outspoken one on this.
    First of all, I respectfully disagree that we have got huge 
interservice rivalries. I have seen among the chiefs the best 
joint cooperation in all of my years of service being directly 
related to chiefs and what happens in the joint system. 
Nevertheless, there is realistic compensation between, you 
know, a fix-up line on things.
    To go back historically, at the end of the Cold War when we 
went after a peace dividend, the Army was the largest bill 
payer in that, and I have testified here many times that we had 
over 100 billion in underinvestment in the Army. That largely--
and that was in the base budget, and that is largely the 
problem we have been trying to overcome, the thing that we call 
the ``holes in the force'' as we try to operate today.
    With your help, we are fixing some of those holes in the 
force, but as you know, because of the level of operation, we 
also have combat losses and higher depreciation of equipment 
because of usage. So it is a problem.
    So what I would--the only reason I bring this up is because 
I think it ought to inform us as we go to the future; we should 
not repeat this as we go forward. We should mix in and have a 
sustained level of funding.
    And I have said, in my view, that we ought to be at about 
five percent of GDP for defense and what we ought to do is the 
equivalent dollar cost average and have a sustained level of 
resourcing that then we don't have to pay a premium as we time 
the market, based upon conflict.
    And so I will kind of leave it there. I think that what we 
should not do is repeat past practices, and we must look at the 
strategic demand in the future, and these people that say that 
we are not going to have these conflicts in the future I think 
are really uninformed in terms of what is there.
    Mr. Cooper. I am afraid you made my point because if the 
Army had asked for 50 percent of the DOD budget 1 year to make 
up for the 100 billion dollar shortfall that you suffered 
unfairly in the past, then you would have seen interservice 
rivalry break out in spades. We just seem--as long as you stay 
within your niche of about 25 percent of DOD budgets, then the 
rivalry won't be so fierce, but that makes us unresponsive to 
real threats and----
    General Schoomaker. We have always asked for more than we 
receive, and we--you know the process that we go through, and 
it is not a straight shot to the Hill. It goes through a 
process and in bureaucracy do what bureaucracies do. And that 
is one of the realities of dealing at this level.
    So I will tell you that if you want to go back and track 
our request against the process, you will find that the Army 
has been aggressive in asking, at least during the period of 
time that I have been here, we have been aggressive in asking 
for what we believe was reasonable.
    Secretary Harvey. Let me also ask in terms of joint--in 
cooperation, we do a lot of acquisition jointly with the Navy, 
and the Marines in particular. You just heard about the MRAP 
program this morning. You look at the Joint Tactical Radio 
System; that is a joint program between the three services. You 
look at the Joint Cargo Aircraft; that is a joint program 
between the Army and the Air Force.
    Humvee, of course, is a joint program. We buy all of the 
Humvees for the Marines and the Aerial Common Sensor Program--
so many programs in the area of the acquisition, where we get 
together and we pool our resources. And the Joint High Speed 
Vessel program with the Navy, I can name a number of these 
programs.
    So it is not--I think it is not all negative and bad news, 
and the chief and I view that as what our job is, and we are 
certainly asking for what the Army needs, and our feeling is 
that the Congress needs to take care of all of the services and 
all of the threats and not just looking at the Army.
    We are asking for the Army needs. We are not doing that to 
take anything away from the Navy and the Air Force or the 
Marines. As a matter of fact, we work so closely with the 
Marines we do things together, and the chief will be testifying 
again like he did before this committee with the commandant.
    So there is a great partnership with the land forces, and 
we take care of each other and look after each other's needs 
and do it together. So it is--maybe it is not where it should 
be, but it is not certainly as bad as it used to be.
    The Chairman. I thank the gentleman.
    Mrs. Drake.
    Mrs. Drake. Thank you, Mr. Chairman.
    Mr. Secretary and General, thank you for being here. I can 
assure you, this committee would like to give you more money 
because we know how badly you need it.
    I wanted to start by showing you this postcard. It is Iraqi 
Operation Freedom. It is pictures of Iraqi schoolchildren with 
their school supplies, and it is from a young man from the 
245th Engineering Company. He says, ``Thanks for supporting the 
troops here in Iraq. We appreciate it.''
    I can't tell you how I felt when I received that. I thought 
here is somebody who is fighting in Iraq for us taking the time 
to send us postcards. We should be writing them long letters 
and thanking them for their service. I publicly wanted you to 
know that is taking place.
    As a Member of Congress who represents a BRAC district, I 
represent Fort Monroe in Virginia, I am concerned about the $3 
billion that was cut, and I know you want that money back in 
there, too.
    Yesterday I had an opportunity to meet the ambassador from 
Egypt and the ambassador from Jordan. What they were here about 
was to talk to us about how critical it is that we not pull out 
of Iraq and the impact that it will have on the surrounding 
countries.
    The question came up about training of Iraqi troops. Egypt, 
we understand from their ambassador, is very willing to train 
troops. They explained to us during the time of the temporary 
government, the then-minister of defense, who I am assuming was 
General Shaalan said no, they did not want to be trained by the 
Egyptians, they wanted to be trained by the Americans. But 
since three or four years have gone by, I am wondering if that 
is something we have revisited or we can look at in order to 
train more troops and to have more Iraqis able to be there. I 
completely understand they need our presence as well. They do 
so much better because of our presence and our training of 
them. But is that something we can relook at or have we 
relooked at it?
    Secretary Harvey. Let me answer in terms of some 
statistics, Congresswoman. I go back to the spring of 2005 when 
there was 140,000 Iraqi security forces. That is when we 
started in earnest. That is when General Petraeus was the head 
of the Security and Transition Command.
    Today there is something like 25 to 30,000 of ever 
increasing quality. So the capacity I think is getting there. 
The plan is to grow the army an additional 40,000, I believe, 
so the final number of security forces is 365,000.
    So I think the capacity, and this has been done with a lot 
of our training brigades and the reserves and institutions in 
Iraq. They have their own recruiting and basic training basis 
and they have their own advanced individual training. All of 
that has been set up.
    Maybe the need was there at one time but today I don't 
think the need is there. The capacity of 365 is there. The 
quality varies, but the quality generally has improved over the 
last couple of years, which is my data points.
    The leadership, they have their command and general staff 
college. They are mimicking what the U.S. does.
    It is a very good story in terms of capacity. The quality 
is vastly improved. It needs to be further improved. And now we 
are working on logistics so they can be self-sustained. A lot 
of great progress has gone on. I don't know if there is a need.
    My recollection is there was some training going on in 
Jordan. My recollection is training going on in Jordan of Iraqi 
security forces, some specialized police training, if I am not 
mistaken.
    Mrs. Drake. Thank you, Mr. Chairman.
    The Chairman. I might say to the gentlewoman, it appears 
that the appropriators will solve the BRAC appropriation 
problem, and we look forward to that.
    Mrs. Drake. Thank you.
    The Chairman. Mr. Marshall.
    Mr. Marshall. Thank you, Mr. Chairman.
    As you know, we are debating this anti-surge resolution, 
and I will wind up voting against that just because I don't 
believe we ought to be sitting on the sidelines booing and 
naysaying in the middle of the play as that play is being 
executed.
    One of the things that makes it awkward for me to vote 
against that resolution is that I have been one in our caucus, 
pretty much a lone voice in the caucus in recent years, who has 
been saying we don't need more soldiers over there, we need a 
different mix, that conventional forces really struggle with 
challenges like this. It is a normal dynamic we have repeated 
over time.
    In order to be ultimately successful, we have to have a 
different mix of capacities over there and we need to be 
building our partner capacity on both the political and 
military side, and ultimately they need to do this.
    As we stay there in a conventional posture doing 
conventional type things long enough, it is going to anger the 
population and anger us and eventually we will separate and it 
will be bad for both sides because we were not doing this the 
right way.
    Dr. Snyder just a little while ago brought up essentially 
the kinds of concerns I have expressed for quite some time 
about our lack of capacity at partner building and networking 
and building political infrastructure and military 
infrastructure in these countries that need that infrastructure 
to support what we are trying to accomplish.
    Chief, you have mentioned these are the wars of the future. 
As we see it on the horizon, we are very likely going to have 
to engage in this kind of thing repeatedly. And yet nobody here 
can say with confidence that we are going to be able to 
reorganize the United States Government to build the capacity 
we need other than in DOD. There is nothing on the horizon that 
suggests we are going to be able to do that.
    I guess what I would like you to comment on, Chief, Mr. 
Secretary, how does what you are proposing in this posture 
statement hit DOD, the Army specifically, because the Army is 
on the ground and the largest presence dealing with the most 
difficult circumstances in these kinds of conflicts, how does 
this head the Army more in the direction of being able to fill 
those gaps, the sorts of things that we know need to be done in 
order for our conventional forces to have any chance at all of 
being successful, and that we think might not be done if we 
just sort of leave it to the hope that Congress is somehow 
going to reorganize the military government in its entirety?
    General Schoomaker. First of all, I will start out. We are 
on the most aggressive transformation of the Army since World 
War II. We have gone to a modular brigade structure, which is 
that greater situational awareness that has now embedded in the 
brigade the kinds of capabilities not only for full spectrum 
but for more at the center of the spectrum. For instance, MPs, 
engineers, increased intelligence capacity, the bandwidth 
necessary to move intelligence and to do the analysis and the 
reach-back. It is a different force, much more agile and much 
more informed. More precise, more lethal, et cetera.
    As this transformation continues we will get better. In a 
broader sense across the Army, and if you look at the balance 
we have between the brigade combat teams and the other combat 
support brigades, we have things like these engineer units in 
the guard that have infantry inside them that are capable of 
operating in nonpermissive and semi-permissive environments to 
do the kinds of things that you would do in the center of the 
spectrum of conflict.
    We have increased the capabilities in our logistics 
infrastructure and force protection and the training we are 
providing those soldiers.
    Additionally, we are expanding our Special Operations 
Forces. The Army's contribution to the USSOCOM is growing by 
14,000 soldiers.
    Mr. Marshall. Let me get you to take it from the other 
perspective. Flip the coin and look at it from what is not 
going to be there? Where are we going to be falling short?
    Secretary Harvey. Let me just take a couple of seconds.
    We are growing our civil affairs function by about 3,000, 
and civil affairs has this broad capability in terms of 
establishing governance and working with the local governors 
and so forth.
    General Schoomaker. Actually doubling the civil affairs.
    Secretary Harvey. Another important thing that the Chief 
mentioned is that one of the principles of insurgency, 
intelligence drives operations, and we are increasing the 
number of military intelligence personnel by about 8,000 over 
the future. So we are increasing those skills that we need to 
do the insurgency.
    Finally, if you look at the template for leadership that 
was developed by the Chief and myself a couple of years ago, 
one of the attributes that we are inculcating into our leaders 
is the ability for statesmanship, governance, cultural 
awareness, and language. We are morphing our leaders to be more 
capable and more effective in a counterinsurgency stability 
operation. So there are a lot of moving parts that are moving 
the Army to be better capable of addressing those irrespective 
of what goes on in the interagency.
    General Schoomaker. Even in high intensity warfare in the 
future we now know there will be an asymmetric component. 
People are going to school on this conflict. Even nation states 
that we may find ourselves as adversaries to in the future, 
they are now transforming themselves to have asymmetric warfare 
capabilities and information warfare capabilities that are much 
different than what we have experienced in the past. This is 
not just a shift toward the center of the spectrum. It is a 
realization that even at the top end of the spectrum, we are 
going to face asymmetric warfare kinds of capabilities.
    Dr. Snyder [presiding]. Mr. Sestak.
    Mr. Sestak. General, if I can ask you a question that Mr. 
Skelton had mentioned, and Mr. Secretary, you kind of answered 
it, but looking at 2006, we met accessions, but we were 17 
percent below new recruit contracts. And since 2004 to 2006, 
the trend has been an 11 percent drop in accessions, as you 
know, but with high school diplomas. And that the percentage of 
those in the above average mental category scoring has dropped 
11 percent since 2004.
    Mr. Secretary, like you said, we are just below four 
percent in those that we access in the Category four area and 
the maximum we can do is four percent by DOD policy. But two 
years ago it was at half a percent.
    I agree that the national treasures sitting behind you are 
the best there is, but if these statistics are not treated as a 
snapshot in comparing to 1980 but rather as good military 
leaders you try to prevent a crisis from happening, rather than 
trying to lead us out of a crisis, if this were to be the same 
two years from now, another 11 percent drop, the trend, would 
you be concerned if this trend continues, particularly in view 
that the recruit quality in 2007 has not increased and yet we 
are asking for another 65,000 troops?
    I am not asking to compare it to 1980, I am asking the 
trend, particularly with an Army that is increasingly dependent 
on FCS and capability by the best and brightest?
    Secretary Harvey. Let me start out on the four percent. I 
made that decision, and I will tell you what statistic I used.
    My recollection was a couple of years ago the Category 
four, and remember there is a Category five and we don't do 
that. Category four, we were running historically about two 
percent. I asked the reason why we supposedly had the two 
percent objective and the DOD standard was four percent. I 
never got an answer to that. Here is the answer I did get. I 
got the answer that about 12 to 13 percent of our today's 
command sergeant majors, the top of our NCO corps, the best NCO 
corps in the world, scored on Category four when they were 
assessed.
    Mr. Sestak. The trend, if it is continuing another 2 years 
from now to 11 percent decrease in high school diplomas, and if 
this trend continues 2 years from now, will you be concerned?
    Secretary Harvey. No, because you either have a high school 
degree or a graduate equivalency degree (GED) equivalent.
    There was a study, and that to us is not a quality 
indicator, that is an attrition or staying--there was a study a 
couple of years ago, maybe five or six years ago, that said the 
propensity to stay in was higher if you had a high school 
degree. Our accessions, people have looked at that time and 
time again.
    Mr. Sestak. Why don't we do away with that statistic then? 
If it doesn't matter, why should we care?
    Secretary Harvey. We should look at it. We need a high 
school equivalent. We don't want to have non-high school 
equivalents.
    Mr. Sestak. If these trends in the mental category, that an 
11 percent increase in those being tested now, two years ago, 
less are in the above average mental category and those other 
trends?
    General Schoomaker. Obviously we want to recruit the 
highest quality force we can recruit, and I would be happier if 
the trend was in the other direction. But I would remind you 
that the law allows us to recruit 20 percent of Cat 4s. We are 
talking about four percent of--we are operating at a four 
percent window here that is a very, very high quality of force.
    Mr. Sestak. Yes, sir. We are also talking about 11 percent 
less with high school diplomas.
    General Schoomaker. The bigger issue is this. We don't 
control the demographics of the population. I spoke a moment 
ago about how challenging this recruiting environment is. We 
are now in the sixth year of war. Three out of ten young men in 
the primary--this is an issue in this country.
    Mr. Sestak. Why have you only asked for $125 million in 
recruiting money this year in the budget, and last year we 
spent $860 million?
    Dr. Snyder. Mr. Sestak, your time has expired.
    Mr. Johnson.
    General Schoomaker. We will get you the right number. That 
is not a right number.
    [The information referred to can be found in the Appendix 
beginning on page 77.]
    Mr. Johnson. Thank you. To follow up on Congressman 
Sestak's questions, assuming that the Congress moves forward 
with increasing end strength, does the Department intend to 
take action to add the resources necessary to improve recruit 
quality, and I think it is clear from what I have read that 
your recruit quality is on the downstroke, or should Congress 
simply expect further erosion in recruit quality?
    Secretary Harvey. I respectfully disagree that the recruit 
quality is going down. It is the highest quality force we have 
ever had. We talked about--our primary quality indicators is 
the so-called ASVAB, the Armed Services Vocational Aptitude 
Battery. I am very satisfied.
    Mr. Johnson. I am asking do you have the resources that you 
need?
    Secretary Harvey. We do. We recruited 175,000 people last 
year with the resources, and to my knowledge we haven't changed 
those resources. You may have to look at the combination of the 
base budget and the supplementals. In fact, our advertising 
campaign is more expensive than it was last year.
    Mr. Johnson. Is it geared toward increasing recruit 
quality?
    Secretary Harvey. Let me say that I and the Chief as 
previously testified, we are satisfied with the quality of this 
force with four percent Category fours.
    Mr. Johnson. Okay. I won't belabor you on that point. I 
thank both of you gentlemen for making it through the elements 
today to come to share testimony with us.
    Regarding our outstanding Army medical personnel, what is 
the Army leadership doing to improve the recruiting and 
retention of medical professionals in the Army? And given the 
proposed increase in end strength, how will the military to 
civilian conversions affect the medical support on the 
battlefield?
    Secretary Harvey. To my knowledge we are doing--now this is 
not the medics, this is the doctors. Is that what you are 
talking about, the docs and the nurses?
    Mr. Johnson. All medical professionals.
    Secretary Harvey. To my knowledge we are not having a 
general problem with medical professionals. Now one proposal 
under consideration is to reduce the so-called mandatory 
service obligation of medical professionals to attract them so 
they don't have to stay in for eight years. That is a proposal 
that is under discussion to incentivize or attract more medical 
professionals.
    In terms of military-civilian conversions, there have been 
many studies which level conversion you can do in the medical 
community. There is for sure one thing: We need enough medical 
doctors in theater and in operations, so we pay very close 
attention to having enough in the system to do that. If you 
have too many civilians, obviously, they can't be deployed and 
they can't go to some of these dangerous situations. So there 
are studies along those lines. We have guidelines and we will 
never convert more military doctors to civilians that will 
jeopardize our ability to do that.
    Mr. Johnson. Thank you.
    There is no question that retention programs are becoming 
increasingly expensive. They will remain under stress during 
Fiscal Year 2007. What is the expected impact on Army retention 
of the President's proposal to increase end strength in Iraq?
    Secretary Harvey. The quarterly retention numbers are all 
exceeding their objective in both the active, guard, and 
reserve. They are exceeding what the objective is. Last year we 
retained about 130,000 soldiers. This year it is in the same 
range, 125,000-130,000. When we have this recruiting meeting 
the Chief and I talked about, we also look at retention.
    Again, the highest retention rates are in those units that 
have deployed or recently deployed. For example, the 10th 
Mountain Division, a third of the 10th was just extended. They 
have exceeded by their retention goal by 162 percent. So right 
now there is certainly no problem with retention, and it is 
highest with the deployed or recently deployed units.
    Dr. Snyder. Your time has expired, Mr. Johnson.
    We are going to go another round.
    Mr. Hunter is recognized for as much time as he needs.
    Mr. Hunter. Thank you, Mr. Chairman.
    I don't want to keep you gentlemen here longer than is 
necessary. But let me just make one remark with respect to my 
friend from Pennsylvania, Mr. Sestak, who talked about high 
school educations. You responded back with some statements 
about GEDs.
    I believe the most successful businessman in the history of 
the United States Congress, who happens to be my seat mate in 
San Diego, Darrell Issa, a gentleman to whom I am looking 
forward to getting some loans from shortly, was a high school 
dropout who joined the United States Army and received a GED 
while in the United States Army and developed a profession and 
expanded that profession into one of the most successful 
business ventures in the world.
    I have always admired, Mr. Secretary, and General 
Schoomaker, you exude the warrior ethos and the idea of can-do 
opportunity and the desire to make yourself better and stronger 
and more educated, all of the things that I think a lot of 
young people aspire to when they go into the Army. I think a 
lot are not sure exactly what they want to do. But the Army 
gives such a broad array of opportunities now, and if you look 
at the all of the MOSs and all of the career paths that can 
emanate from those MOSs in the civilian sector, it is a great 
opening door. And it is one that I think makes better citizens 
out of folks who come out of our communities.
    I just say to my colleagues, I don't think we should 
describe the top three out of ten young people in this country 
anything below, that is the other seven out of ten, as being 
losers simply because they can't make the United States Army 
qualifications. They don't qualify.
    You know, we have all seen the anecdotal stories about the 
fact, and I think the gentleman who owns the spurs, Pete Holt, 
I don't know if you know Pete, but the legend about Pete Holt 
was that he was not a sterling citizen as a young man but 
joined the United States Army and went to Vietnam and did very 
well over there as an enlisted man and came back and became a 
giant in industry. In fact I was out with Pete the other day. 
He was taking a lot of our wounded guys hunting near San 
Antonio, Texas.
    So the fabric of this country is interwoven with people who 
have found their path in the United States Army, as well as I 
might say the other services. There is a certain coming 
together that is found in the military services that is not 
replicated in any other institution in this country.
    So I believe it is the Army of opportunity and because 
there is so much technical focus now that it does open the door 
to an array of civilian prospects. Of course that is always 
going to be a problem because you have talented folks that see 
more money and more stay at home time and maybe more time with 
the family in the civilian areas, so getting those 
reenlistments will always be challenging.
    But I see a bright future for the Army. I don't see 
enlistments going down. I think a lot of that depends on what 
we do. We have all talked a little about this resolution that 
is before us. I think personally that this resolution is going 
to be demoralizing. I think that anything we do is seen and 
observed by our enemies and by our friends and I think by our 
troops. I have read some letters this morning, everybody has 
their letters. I have read letters this morning by folks that 
think that we are letting them down, folks in the theater 
wearing the uniform. I think it is wrong for us, once we have 
made a decision to undertake an operation, a military operation 
and the operation is already underway because you have elements 
of the 82nd Airborne already basically executing this mission, 
the idea that we retroactively condemn the mission is something 
that I think has never been done in the history of this 
country. I don't think that it is going to raise the morale of 
our troops.
    About on the other hand, I know they are pretty tough 
people.
    Just one last thing. Last time Mr. Reyes and I were in 
Balad, and as you know, Mr. Secretary, we were always after the 
commanding officer (CO) about those armored vehicles. The CO 
was showing some of the armored vehicles outside, and you had a 
couple of the obligatory mortar rounds come in a couple of 
thousand meters away while we were there. The General rushed us 
into the nearest building which was a movie theater. I opened 
the doors and there were 400 GIs in there having a Baptist 
church service totally oblivious to this mortar attack outside. 
One hundred GIs were on the stage singing, and the preacher was 
talking and Congress actually got forced to go to church, 
Members of Congress forced to go to church by gunfire, and we 
had to get the full message before we could leave. We didn't 
escape.
    But the sermon was about keeping your family together while 
you are in the military. It was a great sermon. I reflected on 
the fact that my morale was raised by going to Iraq far above 
the level it had been here with lots of naysayers in 
Washington, D.C.
    Thanks for your service. You have been steering a very 
important ship for this country, that great body that has seen 
us through a lot of tough and difficult times.
    I think you are also creating lots of character, lots of 
great Americans with character who will serve us well 
throughout this society. The Army is really a producer of 
character. That is what makes America run. So thanks a lot.
    Thanks for your endurance, General Schoomaker. That rope is 
on its way. We will have it for you shortly.
    Thank you, Mr. Chairman.
    Dr. Snyder. Thank you, Mr. Hunter.
    Mr. Sestak, five minutes.
    Mr. Sestak. Please, General, on my last comment, I entered 
the military during Vietnam and lived through the 1980's that 
you spoke about, and I saw us put a lot of money and attention 
in trying to get the best and the brightest and I know the dog 
hasn't barked yet. My comment isn't to say that it is not a 
wonderful, diverse force.
    I just think best leaders look at trends, and the dog 
hasn't barked, but if the money isn't needed any longer to try 
to get the best and the brightest and if that is not our focus, 
I was just curious about that. Please take it that way.
    General Schoomaker. Sure.
    Mr. Sestak. General, it is always tough to balance 
competing priorities. If you had, or if you are able to say or 
felt comfortable at saying, if you had to put more money into 
the concern you have expressed twice today on strategic depth, 
or the billions that are needed to place 20,000 troops in Iraq, 
where would you have put that money?
    General Schoomaker. Well, you know, it is not my choice.
    Mr. Sestak. Yes, sir. But I was just asking.
    General Schoomaker. This Nation can afford to do both. 
Since we are at war and since the Commander in Chief has made a 
decision that I support, we have to put our priorities on those 
soldiers that are in contact with the enemy. That is where my 
priority would go.
    I still think we have an opportunity to accelerate and 
which I recommend we accelerate the transformation of this 
force. That is why I submitted at the request of Mr. Hunter the 
financial requirements, and why I mentioned today the fact that 
there is opportunity outside this current budget so if we want 
to accelerate we could.
    Mr. Sestak. Are there any changes to BRAC that have to be 
thought of because of the new Brigade Combat Teams (BCTs)?
    General Schoomaker. Yes. We have. We are not reopening 
BRAC, but we have to think differently about the timing. It is 
such a closely knit plan that we are very concerned about 
anything that stalls that plan because it starts backing things 
up.
    In fact, we may even have to, we may have to fold some 
flags that we have built; in other words, units, because we 
cannot move them to where we want to move them. We may have to 
redistribute them.
    Mr. Sestak. There were two unmanned aerial vehicles and two 
robotic systems that you have cancelled or delayed, I think the 
Secretary said. Is this of minimal or significant impact upon 
the capability of the FCS system?
    General Schoomaker. We made some decisions based on things 
that we have learned and additional technologies. We focused 
what we wanted to do on the UAV program.
    Mr. Sestak. So they are cancelled? Have you folded them in? 
My question is: Are they delayed or are they cancelled?
    Secretary Harvey. You mean the UAVs?
    Mr. Sestak. And the robotic systems.
    Secretary Harvey. We have deferred two of the four class. 
We are going to see whether or not we can move the so-called 
one to be more like a two, a two-one, and the four more like a 
four-three. But we are reserving our final decision until we 
see how this develops.
    Mr. Sestak. I do think the tragedy of Iraq, one of them, my 
belief, I could be wrong, that the transformation of the Army 
that was so well thought of by General Shinseki and then you 
took so much further has been delayed. I think Mr. Cooper had 
it right.
    What the particulars were by putting more into that I think 
is something that needs to be done. I just wish it could have 
been done and might have been done sooner because I do worry 
about the strategic depth in the sense of being able to respond 
to other contingencies that we hope don't occur from the 
Western Pacific to the Middle East or to Northeast Asia.
    Thank you, General. Thank you, Mr. Secretary.
    Dr. Snyder. Mr. Wilson.
    Mr. Wilson. Thank you, Mr. Chairman.
    I am glad we are concluding on a very positive note. The 
references to character and opportunity of our military, the 
best and the brightest of the military, I truly know firsthand 
with our family what the military does. I told you how it has 
impacted our family.
    My oldest son, who served for a year in Iraq, he was a 
pretty good student in undergraduate school, but not too good. 
He went to Fort Sill to artillery school, and he had computer 
training, multiple launch rocket systems, and he took of.
    It might be shocking to Dr. Snyder, but he went on to law 
school because we need more attorneys. But he would not have 
gotten to law school if he hadn't had the impetus of his 
military training.
    Another son went to signal school. He is now an expert in 
communications from Fort Gordon. I am so proud of him. He is 
now a superstar in selling commercial real estate in South 
Carolina. Again, it was the military training that had such an 
impact.
    Additionally, our youngest son is Army ROTC at Clemson 
University. I know the leadership skills that he is learning. 
Over the weekend I was at the White Knoll High School, a Navy 
JROTC event. They had representatives there from Pelion High 
School Army ROTC, from Lexington High School Navy JROTC. It 
just makes you feel so good to see the opportunities for these 
young people.
    I myself was Army ROTC at Washington and Lee University, 
and what I learned at JAG school at the University of Virginia, 
and then this is somewhat scary, I became a combat JAG in the 
year 2000. The 218th went for training at the National Training 
Center, again an extraordinary opportunity for me and the 
people I served with. I want to assure the American people we 
have the best and the brightest.
    My number two son is a bit off track. He is a doctor in the 
Navy. He is serving in Connecticut, and I am proud of him.
    I have a nephew of whom I am very proud of serving in 
Anchorage, Alaska, and he actually volunteered to serve there.
    Thank you for your service and all of us appreciate the 
opportunities that are provided for the young people in the 
military.
    Dr. Snyder. Gentlemen, I asked you earlier about a question 
for the record on the GI bill. It may be quicker to have your 
staff call me.
    One final question that is on the issue of procurement. 
There seems to be uniform agreement that we have a real issue 
on how we buy things in the military and it is a huge ship to 
try to turn and do things differently. One specific issue came 
up in our discussion with General Pace last week which was part 
of Goldwater-Nickles, service chiefs were essentially taken out 
of the chain of command when it came to procurement. Have you 
formed an opinion, do you think service chiefs should be put 
back in the chain of command when it comes to procurement 
issues?
    General Schoomaker. Service chiefs are not in the chain of 
command at all. We are advisers to the civilian leadership and 
the acquisition in the Army falls under the Secretary of the 
Army's purview. I provide advice freely. There are no problems 
there.
    I will tell you this candidly. If we let the acquisition 
bureaucracy run at the speed it wants to run, we will never be 
successful in transforming and winning in the world that we are 
in. It has a tendency to work down to zero defects and preclude 
any real innovation, in my opinion.
    So anybody that has any ideas about how we can streamline 
this, we are getting ahead not because we are moving at the 
pace of this acquisition bureaucracy. I am very concerned that 
this will again get traction and we will lose a lot of momentum 
if that occurs.
    Dr. Snyder. We appreciate you gentlemen for being here.
    Mr. Hunter, do you have anything else?
    Mr. Hunter. No, thank you, Mr. Chairman.
    Dr. Snyder. Thank you for your service, and we look forward 
to working with you until April 10, General, and beyond.
    General Schoomaker. If I may make a confession, I was not 
only one of these rascals when I was a kid, but I was also not 
the sharpest knife in the drawer and my parents will attest to 
both. I don't know if I have been successful in Army and life, 
but the Army has made a difference. I have been very, very 
proud of my association with the Army and the young men and 
women who are in it. Thank you for the opportunity and thanks 
for the kind words.
    [Whereupon, at 12:50 p.m., the committee was adjourned.]


      
=======================================================================




                            A P P E N D I X

                           February 14, 2007

=======================================================================

      


      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                           February 14, 2007

=======================================================================

      
      
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

      
=======================================================================


                   DOCUMENTS SUBMITTED FOR THE RECORD

                           February 14, 2007

=======================================================================

      
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
      

      
=======================================================================


             QUESTIONS AND ANSWERS SUBMITTED FOR THE RECORD

                           February 14, 2007

=======================================================================

      
                   QUESTIONS SUBMITTED BY MR. SKELTON

    The Chairman. Over the past several months, and particularity since 
January 20, the Army has lost several helicopters in Iraq, at least 
four to hostile fire. The Congress, on a bipartisan basis, has 
consistently supported all Army and Marine Corps requests for force 
protection equipment. I understand there are effective, laser-based 
directed infrared countermeasure systems currently installed on over 
two dozen different types of aircraft, including Air Force C130s, 
Special Operations Command MH-53 helicopters, and Dutch Apache 64Ds. In 
the area of aircraft survivability equipment, is this technology of 
sufficient maturity to be fielded on Army helicopters to defeat man-
portable air defense systems? Would the Army benefit from direct 
infrared countermeasure technology now for large signature aircraft 
such as Chinook CH-47 helicopters, rather than wait several years for 
other aircraft survivability technology to be developed and fielded?
    Secretary Harvey. Aircraft Survivability Equipment (ASE) is one of 
the Army's top priorities and the Army is working to improve existing 
systems. In addition to what's in the FY08 President's Budget, the FY07 
ASE Supplemental requested $296 million that would procure ASE 
suppressors for CH-47, AH-64, and UH-60 aircraft, upgrade the Common 
Missile Warning System (CMWS) with a 5<SUP>th </SUP>sensor, provide 
CMWS for Airborne Reconnaissance Low (ARL) aircraft, and procure 
additional AN/AVR-2B Laser Detection Devices. In FY08, the Army has an 
unfunded requirement of $207 million. This amount of funding would be 
used to continue fleet upgrades to the CMWS system, procure Laser 
warning devices, continue with suppressor upgrades to the fleet, 
accelerate Advanced Threat Infrared Countermeasures (ATIRCM), and 
procure man portable missile countermeasures trainers to units prior to 
deployment. The Army requests your continued support in our efforts to 
protect our soldiers engaged in the Global War on Terror.
    The Chairman. The Fire Scout Class IV UAV is not scheduled for IOC 
until 2014. However, there are currently eight Fire Scouts UAVs in 
production that could be made available to the war fighter. Given the 
recent loss of Army helicopters, would the Army benefit from getting 
this capability into the hands of soldiers now by fielding these eight 
air vehicles as soon as possible? What are the specific plans for the 
Fire Scout UAVs being procured?
    Secretary Harvey. The eight Class IV Unmanned Aerial Systems you 
reference are pre-production air frames only, not capable of flight 
yet. The systems are being used to perform integration of Future Combat 
System (FCS)-specific avionics and computer systems and testing of 
flight software to meet the FCS requirements. The Preliminary Design 
Review is July 2008, the Critical Design Review is July 2009 and First 
Flight is November 2010. These dates are synchronized with the overall 
FCS integrated schedule. Removing these prototypes from the development 
schedule and retrofitting them with current payloads, communications 
and avionics would have a minimal operational impact, but would hamper 
the FCS integration schedule. Nonetheless, FCS has been working with 
Northrop Grumman, developer of the Fire Scout, to explore earlier 
flight opportunities.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. HUNTER
    Mr. Hunter. Can we get a number for the committee as to how many 
Humvees we by golly own in the U.S. Army? Number two, how many Humvees 
the Army Guard says it is short?
    Secretary Harvey. The Army currently has a total requirement for 
140,445 High Mobility Multi-purpose Wheeled Vehicles (HMMWVs). The 
Active Component has a requirement for 66,733 vehicles, we have 72,592 
vehicles in our inventory, and 25,552 are in Theater. These numbers 
include over 15,000 Up-armored HMMWVs.
    The National Guard has a requirement for 46,278 HMMWVs, has 35,392 
on hand and is short 10,866 HMMWVs. The Army has programmed sufficient 
funding through 2013 to meet 98 percent of the outstanding requirement. 
The Army requested the remaining 2 percent of the National Guard's 
HMMWV shortage in the fiscal year 2008 (FY08) Global War on Terrorism 
request. If this request is fulfilled, the Army National Guard will be 
equipped at 100 percent of its requirement by 2013. Cascading from the 
Active Component to the National Guard will not be required if the FY08 
supplemental and programmed funding are supported.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. EVERETT
    Mr. Everett. Several army helicopters have been shot down in the 
past few weeks. Without getting into classified areas, what is the Army 
doing to ensure the safety of pilots flying in theater?
    General Schoomaker. No new threats have been identified. The enemy 
is adaptive and has started using different tactics and techniques. The 
Army continues to adapt our tactics, techniques and procedures along 
with continuing to improve the aircraft systems.
    Mr. Everett. In discussing the issue of Army helicopter crashes 
with pilots who have flown over there, they are concerned that our 
Rules of Engagement as well as a limited number of firing ranges are 
contributing to the recent crashes? Have you examined these factors as 
possible reasons for the crashes?
    General Schoomaker. The Army dispatches an Army Shoot Down 
Assessment Team to investigate every aircraft incident. Managed out of 
U.S. Army Combat Readiness Center (CRC), the ASDAT routinely dissects 
every accident. The investigation results are provided to the Army 
through a lessons learned secure interactive website. Furthermore, the 
U.S. Army Training and Doctrine Command ensures aviation curriculum 
remains updated with any and all lessons learned from the CRC.
                                 ______
                                 
                 QUESTIONS SUBMITTED BY MR. ABERCROMBIE
    Mr. Abercrombie. What is the Army's equipping standard for Modular 
Brigade Combat Teams when not in a combat theater? Is it 100% for all 
non-deployed Modular BCTs? How is the equipping standard related to the 
Army Force Generation Model?
    General Schoomaker. The Army does not have enough equipment to 
equip non-deployed Modular Brigade Combat Teams to 100 percent. In 
accordance with the Army Force Generation (ARFORGEN) model published in 
the Army Campaign Plan, units progress through stages of increasing 
readiness in manning, equipping, and training in preparation to deploy. 
Units conduct reset and individual training in the ``reset and train'' 
phase and collective training in the ``ready'' phase before they 
progress to the ``available'' phase where they are available to deploy 
for designated or contingency missions.
    Units in ``reset and train'' will be equipped to the level required 
to execute the training plan and begin effective collective training. 
Units in the ``ready'' phase continue their structured progression to 
achieve their theater-specific or full-spectrum mission capability. In 
the highest level of readiness, the unit has every thing it needs to 
accomplish its assigned mission.
    The Army is implementing ARFORGEN in a bridging phase and an 
objective phase. In the objective state, the standard will be for units 
to have at least 90 percent of their equipment within 120 days after 
they redeploy to home station at the end of their available phase. In 
the current bridging state, the standard is for units to have at least 
65 percent of their equipment within 120 days after redeployment, and 
at least 80 percent of their equipment at least 45 days prior to their 
mission rehearsal exercise. In both states, bridging and objective, 
deployed units must have 100 percent of the mission requirement, which 
they will receive before deployment or through theater provided 
equipment.
    Mr. Abercrombie. The Future Combat Systems (FCS) is designed to 
``see the enemy first'' and avoid unexpected contact in unprecedented 
ways. What evidence does the Army have from Iraq--where US forces are 
attacked every day by dozens of hidden IEDs and insurgents--that this 
new level of ``seeing the enemy'' will be possible by 2015 when it 
clearly is not possible today?
    General Schoomaker. The question highlights a portion of what the 
Army calls the ``Quality of Firsts'' found in U.S. Army Training and 
Doctrine Command's Pamphlet 525-3-2, The United States Army Concept for 
Tactical Maneuver 2015 - 2024. ``These qualities are intended to 
address the ability of the future Modular Force to operate inside the 
enemy's cycle of adaptation and to deny the enemy opportunities to 
initiate action. Moreover, to the extent that the enemy succeeds in 
achieving surprise or retaining initiative, they constitute an 
imperative for tactical commanders to take action to quickly regain the 
initiative.'' Future Combat Systems will improve, but not resolve the 
issue of surprise at the tactical level. Today many insurgents and IEDs 
are identified and dealt with by the current force, yet we must get 
better. Formations with FCS capabilities will certainly perform much 
better than current forces due the greater numbers of manned and 
unmanned sensors, linkages to joint and higher intelligence sources, 
improved ability to share information via the network, and the ability 
to pass this greater situational awareness in near real time to 
individual platforms and Soldiers. An FCS-equipped brigade will have a 
522.6% increase in the number of sensor capabilities compared to the 
current heavy brigade combat team. For example, real-time 
demonstrations in February 2007 with FCS unmanned aerial vehicle assets 
showed these gains when Soldiers used them to detect simulated roadside 
bombs and IEDs and planned routes away from them; this was not an 
intended result of this demonstration, but Soldiers recognized and 
exploited this capability to their benefit.
    Mr. Abercrombie. The FCS design appears to depend upon an almost 
total dominance of the air by US forces in order to fly its hundreds of 
UAVs, move supplies to dispersed units, maintain its network, and 
collect intelligence through joint intelligence assets. To what extent 
are FCS units of the future going to be dependent upon the US Air Force 
and US Navy to control the air, fly in supplies, and provide 
intelligence?
    General Schoomaker. Today, each element of the U.S. Joint force 
depends upon others for certain capabilities and the future holds even 
greater demands for this joint interdependence. Future Combat Systems 
is designed to leverage the capabilities of the entire joint force 
(air, land, and sea) through advanced networking, joint fires, and 
joint intelligence, surveillance, and reconnaissance. Land forces with 
FCS will depend on air support just as current forces do today. 
However, the FCS brigade will have 122 organic UAV assets available to 
the tactical commander. These land forces will in turn provide 
increased, real time information to improve the intelligence picture 
for the entire joint force using advanced sensors and networking. The 
Army will continue to work with the other Services on airspace 
management and sustainment to ensure both manned and unmanned air 
assets from FCS and other programs operate safely and to maximum 
effect. Commonality of parts, improved reliability of components will 
reduce the logistical footprint of the FCS BCTs and reduce the 
dependence on support from the Air Force and Navy as compared to 
current logistical requirements of brigades deployed in OIF/OEF. 
Projecting and sustaining land forces in austere environments requires 
the entire joint team.
    Mr. Abercrombie. To what extent will FCS units depend upon 
satellites to provide communications and intelligence? Has the Army 
done any analysis to determine whether or not there will be enough 
satellites and enough bandwidth to support FCS units in 2015?
    General Schoomaker. The Future Combat Systems' (FCS) is a system of 
systems and must have the capability to detect, classify, recognize, 
identify and locate enemy combatant systems and identify with the 
precision necessary to meet assured lethality in all operational 
environments. This is achieved through the three-tier transport 
architecture, ground, air, space via the JTRS and WIN-T program of 
records.
    A wideband satellite communication capability will be incorporated 
into manned vehicle platforms within the FCS BCT. There will be three 
variations of these SATCOM platforms; an on the move (OTM) Ku/Ka-band 
terminal, an OTM Ku/Ka-band terminal with an OTM Global Broadcast 
System capability and an at the quick halt (ATQH) variant that will 
enable higher throughput at the expense of mobility.
    In addition to the wideband SATCOM capability, the FCS BCT will 
incorporate a narrowband UHF SATCOM capability into a number of manned 
ground vehicles, intended to serve as a lifeline capability to 
guarantee users a connection into the network independent of the state 
of the rest of the FCS ground, air, space network. This capability will 
migrate to Mobile User Objective System as this terminal and space 
solution matures.
    The Army conducted analysis of WIN-T bandwidth requirements in 2005 
to determine whether there will be enough satellites and bandwidth to 
support the units in 2015. This analysis was based on operational 
scenarios that were used to insure the most stringent conditions the 
network must support. This worst case analysis framed the scope of the 
WIN-T modeling performed. The analysis determined that there will be 
enough satellites and bandwidth to support the units in 2015.
    Mr. Abercrombie. Two of the critical programs that will enable FCS 
units to operate, the Joint Tactical Radio System and the Warfighter 
Information Network - Tactical (WIN-T), have experienced program 
delays. If these two programs are further delayed will FCS have to be 
delayed as well? What is the backup plan if these two critical programs 
that will provide the FCS network don't deliver on schedule? Can FCS 
brigades operate without these two systems?
    General Schoomaker. The Joint Tactical Radio System (JTRS) program 
is synchronized with the FCS program to ensure required capabilities 
are delivered to FCS in time for their needs. In fact, JTRS has 
delivered approximately 50 Pre-engineering design modules (EDM) radios 
to meet FY07 FCS capability needs and another 50 radios will be 
delivered in order to satisfy the FCS requirements for testing and 
experimentation on various FCS platforms. JTRS has undergone an 
extensive restructuring during the last year. At this time, the JTRS 
programs are characterized as moderate risk.
    The WIN-T program is synchronized to deliver EDM to FCS by FY09, 
which meet all size, weight, and power specifications for the required 
WIN-T points of presence on the FCS platforms. A preliminary design 
review was conducted in January 2007 by the Project Manager, WIN-T, at 
which the schedule, specifications, and delivery dates of all of the 
WIN-T items needed for test and integration were presented.
    There is a back-up plan if the WIN-T and JTRS programs don't 
deliver on schedule, which is illustrated by supported spin-outs to 
develop and field FCS capabilities. However, there is not currently an 
Army system that provides significant bandwidth and throughput to 
support the mobile ad-hoc environment envisioned for FCS brigade combat 
team operations.
    The Program Manager, FCS continuously assesses the impact of 
variables on the program. While most are controllable, uncontrollable 
variables impacting schedule would need to be assessed further to 
determine the extent of the impact. PM FCS maintains an extensive risk 
analysis plan designed to help monitor and address identified risks 
(should they become problems) related to the network's schedule and 
performance. Recognized as critical programs, WIN-T and JTRS indeed 
serve as the backbone of the FCS network, thus the absence of either 
would noticeably impact the FCS' system of systems in a manner that 
would essentially digress from a SoS concept back to a single vehicle 
at a time replacement of radios.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. MEEHAN
    Mr. Meehan. It was my understanding that the Army had cut 
recruiting efforts this year by $125 million; is that true?
    Secretary Harvey. No, the Army has not cut funding from its 
recruiting budget. The budget for recruiting is contained in both the 
base and supplemental and therefore it could be misleading to look at 
numbers contained in just one of the documents.
    The Army increased funding from FY03 to FY07 to support recruiting 
the All-Volunteer Force. The Army spent $1 billion in FY03, $1.3 
billion in FY04, $1.6 billion in FY05, $2.1 billion in FY06 and in FY07 
the Army requested $2.3 billion for recruiting.
    The current FY07 base budget and supplemental request reflect the 
Department's projected requirements by component. Within individual 
components, the Active Component and Army Reserve funding grows from 
FY06 to FY07. Due to the FY06 success of the Army National Guard in 
closing its end strength shortfall, funding for recruiting declines 
from FY06 to FY07. The Army will continue to closely monitor its FY07 
recruiting results and make any necessary internal adjustments.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY DR. SNYDER
    Dr. Snyder. Do you share the concerns of Members of both the House 
and the Senate that we need to revisit this issue on losing the 
educational benefit once they are out of the reserve component?
    General Schoomaker. Under the Montgomery GI Bill there are two 
major educational programs available to Reserve Component Soldiers: the 
Montgomery GI Bill-Selected Reserve (MGIB-SR, or chapter 1606 of title 
10, U. S. Code) and the ``Reserve Educational Assistance Program'' 
(REAP or Chapter 1607).
    The Montgomery GI Bill-Selected Reserve is an educational 
assistance program enacted by Congress to attract high quality men and 
women into the reserve branch of the Armed Forces. MGIB-SR does not 
require a Soldier contribution, and effective October 1, 2006 pays 
$309.00 per month to a full-time student. Soldiers have up to 14 years 
to use this benefit after becoming eligible as long as they remain a 
member of the Selected Reserve (SELRES).
    The 2005 National Defense Authorization Act provides an educational 
benefit for those Reserve Component (RC) members mobilized in support 
of a contingency or national emergency. This benefit is referred to as 
the ``Reserve Educational Assistance Program'' (REAP) or Chapter 1607. 
REAP provides a tiered educational benefit based on the length of 
active duty time and does not require a Soldier contribution. To 
receive this benefit, a member of the Individual Ready Reserve (IRR) 
must remain in at least the IRR while drawing educational benefits. An 
IRR member may transition to the SELRES, but a SELRES member can not 
transition to the IRR and continue to draw benefits. The tiered benefit 
is pegged at 40% of the 3-year Montgomery GI Bill Active Duty (MGIB-AD) 
benefit for eligible Reserve Soldiers mobilized for at least 90 days of 
active duty (AD) service, 60% for those with at least one year of AD 
service, and 80% for those with at least two years of AD service.
    The Montgomery GI Bill programs are necessary recruiting and 
retention tools for all Army components. However, rising educational 
costs in recent years have diluted the impact of the monthly stipends. 
The Army supports legislation to ensure the monthly stipends benefit 
adequately addresses rising educational costs. The Army also supports 
extending the eligibility timeframe for using Montgomery GI Bill 
benefits to ensure Soldiers are afforded a reasonable time period to 
transition into society.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. WILSON
    Mr. Wilson. As we are discussing the reinforcements for General 
Petraeus, it has been stated that our troops do not have body armor. 
They don't have proper uparmored Humvees or even helmets. I would like 
again a restatement--indeed, the persons outside the wire, people who 
are in harm's way, surely family members need to know that their young 
people are fully equipped.
    General Schoomaker. The U.S. Army's priority is sending only the 
best trained and equipped Soldiers into combat operations and that 
means providing the best force protection equipment for Soldiers. Even 
as we increase our commitment in Operation Iraqi Freedom and beyond, we 
will continue to provide all Soldiers with the best force protection 
available.
    In terms of personal force protection, every Soldier and DoD 
civilian in Theater is equipped with the best body armor in the world, 
Interceptor Body Armor. Over 900,000 sets of body armor as well as 
271,000 Deltoid Axillary Protectors and 276,000 Ballistic Side Plates 
have been fielded. The Rapid Fielding Initiative has also outfitted 
800,000 Soldiers with over 40 off-the-shelf items that improve an 
individual's capability and protection, such as protective eye wear, 
knee pads, wick-away undergarments, radios, improved first aid kits, 
and Advanced Combat Helmets.
    Force protection equipment is not just limited to personal items; 
the Army manages a robust fleet of vehicles. In Iraq alone, we have 
gone from a low of 400 up-armored HMMWVs to nearly 15,000 up-armored 
HMMWVs, over 380 Abrams tanks, 630 Bradley fighting vehicles, 360 
Strykers, and about 1,000 other armored vehicles including the mine 
resistant ambush protection-like series of vehicles with v-shaped 
hulls. Everyday these vehicles are patrolling, protecting troops, and 
mitigating risk from most types of enemy munitions.
    While all these improvements have been substantial, the 
comprehensive process of assessing lessons learned to find and 
accelerate technological advancements to Soldiers continues.
    An excellent example is how the Army is improving the HMMWV, based 
on the ever-changing battlefield threat. As of this date, the Army has 
produced enough Fragmentary Kits 1, 3, and 5 to outfit every HMMWV in 
Afghanistan and Iraq. Safety enhancements such as driver restraints and 
fire suppression systems have been added as well. Contrary to news 
reports, the Army has sufficient up-armored HMMWVs being produced or 
fitted with force protection and safety enhancements to meet the plus-
up requirement. These vehicles are being shipped directly from the 
factory to theater to ensure our Soldiers have HMMWVs with essential 
force protection improvements as they ``cross the berm'' into harm's 
way.
                                 ______
                                 
                    QUESTIONS SUBMITTED BY MR. COLE
    Mr. Cole. First, I would very much appreciate your remarks about 
funding the BRAC process. I know a number of us voted actually against 
the continuing resolution because that had been stripped out of it, and 
I think many of our colleagues who voted for it, had they had the 
opportunity to vote separately on that item or amend it, would have 
certainly restored those funds. So I am hopeful, going forward, we 
could find a way to do that.
    But could you tell us in some detail, perhaps mentioning specific 
installations, if you like, or whatever the impact will be if that does 
not occur?
    Secretary Harvey. Cuts and/or delays in BRAC funding will have an 
operational impact on the training, mobilization, and deployment of 
forces in support of the Global War on Terrorism (GWOT). Under the 
fiscal year 2007 (FY07) House Joint Resolution 20, the Army will only 
be able to award 34 of the planned 75 BRAC construction projects 
assuming the Army receives $1.6 billion. Forty-one projects planned for 
FY07 would slip into FY08, where the Army already has 89 BRAC 
construction projects planned; therefore, a total of 130 projects will 
have to be reviewed and re-prioritized in FY08 to support the Army's 
operational requirements and restationing efforts.
    Specifically, the operational and quality of life impacts will be:

        a. The Army will be forced to delay building new Army brigades, 
reduce forces available for combat rotations, and complicate reset 
strategies - increasing the operational tempo of existing brigades.

        b. The Army will delay Reserve Component transformation by 
funding only 13 of 27 Armed Forces Reserve Centers (AFRCs) thereby 
adversely affecting training, equipping, recruitment and retention.

        c. Reduced funding affects the All-volunteer force by breaking 
the Nation's obligation to provide Soldiers and their families' 
adequate quality of life (QOL) facilities such as new barracks, dental 
clinics, child development centers, and youth centers.

        The following examples illustrate the impacts of operational, 
training & QOL projects that fall below the $1.6 billion funding 
provided by FY07 HJRes 20, and are further illustrated in a chart that 
outlines the FY07 BRAC impacts, funded and unfunded, with example 
impacts.

        a. Fort Bliss ($42.5 million): two training projects, the 
battle command center and ammunition supply point--without these 
projects, Soldiers and units will be unable to train and prepare for 
operational deployments.

        b. Fort Benning ($293 million): Training barracks complexes, a 
brigade headquarters and three ranges--the Armor Center will not be 
able to move to Fort Benning and the Army will be unable to increase 
initial entry training numbers in order to meet operational demands.

        c. Cannot begin to move the Human Resources Command to Fort 
Knox; Combat Services Support Center at Fort Lee, recruiting facilities 
at Redstone Arsenal, and barracks at Shaw Air Force Base--severely 
restricts Army's ability to recruit, retain and to deploy units to meet 
operational demands ($318 million).

        d. QOL requirements ($42 million; seven projects): youth and 
child development centers at Forts Benning, Riley, Bliss, and Sam 
Houston; and dental clinics at Forts Bliss and Sam Houston--critical to 
population on ground, the network is insufficient to handle increased 
medical and dental needs and soldiers cannot deploy if they are not 
medically fit and families are taken care of while soldiers are 
deployed.

        e. Aberdeen Proving Ground ($145 million): cannot start Phase 1 
of the Communications/Electronics Research, Development, and Evaluation 
Center--the Army will not be able to close Fort Monmouth and support 
GWOT.

        f. Fourteen of 27 Armed Forces Reserve Centers in 10 states 
(approximately $574 million):--impacts Reserve Component training, 
equipping, transforming and the support of operational requirements.

    [The chart referred to can be found in the Appendix on page 63.]
                                 ______
                                 
                    QUESTIONS SUBMITTED BY MR. KLINE
    Mr. Kline. It seems that if your previous service was in Kosovo, 
you were treated in one way; If your previous service was in Bosnia, 
you were treated another way. It impacts around 400 or so guardsmen in 
Minnesota, and so this is my appeal to you to please check on the 
status of that report which was frankly due more than six months ago 
and see if you can come back to us on that issue. It is an unanswered 
question in the State of Minnesota.
    Secretary Harvey. The Fiscal Year 2007 John Warner National Defense 
Authorization Act, Public Law 109-64, section 678, directs the Army to 
report to Congress: 1) the number of members of the Army National Guard 
and Army Reserve affected by a disparate treatment afforded to members 
who were mobilized pursuant to 10 USC Sec. 12304 in determining 
assignment incentive pay (AIP); and 2) proposed remedies or courses of 
action to address disparity, including allowing time served during a 
mobilization pursuant to 10 USC Sec. 12304 to count toward the time 
needed to qualify for AIP An interim report was provided to Congress in 
December 2006 and the final report was completed and delivered to 
Congress on February 15, 2007.
    The report advises that the Army has proposed a new AIP program to 
compensate Soldiers who agree to volunteer beyond 12 months boots on 
the ground (OIF/OEF). Implementation of this program will follow OSD 
approval, which is pending. This program compensates Active Component 
Soldiers serving in assignments that are echelons above brigade who 
voluntarily extend beyond their 12 months boots on the ground (OIF/
OEF). All Reserve Component Soldiers who agree to serve beyond 12 
months boots on the ground, regardless of the amount of time served 
under Presidential Reserve Call-up (PSRC), 10 U.S.C. Sec. 12304, or 
Partial Mobilization, under the provisions of (UP) 10 U.S.C. 
Sec. 12302, will be eligible for this compensation. The AIP program, 
requiring RC Soldiers exhaust their Partial Mobilization authorization 
clock of 730 days and volunteer under 12301(d), will be eliminated.
    The PDUSD/P&R authorized the use of AIP for certain Reservists on 
August 6, 2004, to assist the Army with a specific readiness issue at 
that time. Soldiers in a Brigade Combat Team (BCT) were approaching the 
completion of their involuntary mobilization time UP 10 U.S.C. 
Sec. 12302. These Soldiers' continued service was needed, so they 
volunteered UP 10 U.S.C. Sec. 12301(d) to remain in Theater to ensure 
unit readiness and cohesion, until the unit completed 12 months boots 
on the ground. The Army had not used PSRC authority since November 
2004, and there were no Soldiers in the BCT who had served under PSRC. 
Therefore, Soldiers who had served under both 10 USC Sec. Sec. 12304 
and 12302 were not included in this policy.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. SESTAK
    Mr. Sestak. Why have you only asked for $125 million in recruiting 
money this year in the budget, and last year we spent $860 million?
    General Schoomaker. The Army increased funding from FY03 to FY07 to 
support recruiting the All-Volunteer Force. The Army spent $1 billion 
in FY03, $1.3 billion in FY04, $1.6 billion in FY05, $2.1 billion in 
FY06 and in FY07 the Army requested $2.3 billion for recruiting. The 
budget for recruiting is contained in both the base and supplemental 
and therefore must be combined to accurately reflect the amount spent 
on recruiting.
    The Army increased funding from FY03 to FY07 to support recruiting 
the All-Volunteer Force. The current FY07 base budget and supplemental 
request reflect the Department's projected requirements by component. 
Within individual components, the Active Component and Army Reserve 
funding grows from FY06 to FY07. Due to the FY06 success of the Army 
National Guard in closing its end strength shortfall, funding for 
recruiting declines from FY06 to FY07. The Army will continue to 
closely monitor its FY07 recruiting results and make any necessary 
internal adjustments.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. CASTOR
    Mr. Castor. How many Army soldiers are currently deployed in 
Afghanistan and Iraq?
    Secretary Harvey. There are 130,000 Soldiers currently deployed in 
Afghanistan and Iraq.
    Mr. Castor. What is the outlook for the mission in Afghanistan? 
Summarize the mission plan for the Army.
    Secretary Harvey. Our military is working with the International 
Security and Assistance Force (ISAF), conducting operations that 
provide security, stability, and maturing governance to the people of 
Afghanistan. Through Combined Security Transition Command-Afghanistan 
(CSTCA), continue to mature and grow the Afghanistan Security Forces. 
We are working with allies and partners to build capacity and set 
conditions for regional security and prosperity.
    Mr. Castor. Detail the troop rotations schedules for the coming 
year.
    Secretary Harvey. The Secretary of Defense has approved the 
deployment or extension of the following units: Division Headquarters, 
3<SUP> rd</SUP> Infantry, Combat Aviation Brigade of the 3<SUP>rd</SUP> 
Infantry Division; 2<SUP>nd</SUP> Brigade of the 82<SUP>nd</SUP> 
Airborne Division; 3<SUP>rd</SUP> Brigade, 3<SUP>rd</SUP> Infantry 
Division and 4<SUP>th</SUP> Brigade of the 1<SUP>st</SUP> Infantry 
Division; and the extension of 1/34<SUP>th</SUP> Brigade Combat Team. 
Additionally, a number of combat support and combat service support 
units have been deployed in support of the plus-up. These include 
engineer and military police battalions, explosive ordnance companies, 
forward surgical teams, tactical psychological detachments, and postal 
units. The 4<SUP>th</SUP> Brigade of the 82<SUP>nd</SUP> Airborne 
Division has deployed in support Operation Enduring Freedom.
    Mr. Castor. What are the equipment and modernizations pressures in 
Afghanistan and back home for the Army, National Guard and Army 
Reserves?
    Secretary Harvey. Equipment pressures in theater (OIF/OEF) are the 
continued evolution of the threat against our force protection vehicle 
and individual Soldier solutions. Timely reaction to these threats 
results in rapidly changing priorities in executing our funding. Even 
today, emerging solutions to protect our Soldiers demand funding 
changes that will lessen procurement of equipment for our units back 
home--Active, National Guard and Army Reserve. The primary impact of 
these changes will be filling the equipping requirements for non-
deployed Soldiers and units, and in their preparation for other 
potential contingencies. The Army has been filling the original $56 
billion in equipping shortfalls that existed at the start of the 
conflict. With the tremendous support of Congress, we have filled $47 
billion of those shortfalls, leaving $9 billion remaining. However, the 
experiences of today's warfare necessitate changes in our modernization 
design, to include structuring the Reserve Components to the same 
modern design as their active counterparts. To complete this equipping, 
an additional $43 billion is needed: $24 billion for the National 
Guard, $10 billion for the Army Reserve, and $9 billion for the Active 
Component support unit modernization. This total of $52 billion in 
shortfalls ($9 billion original + $43 billion modernization) is within 
the current program. An additional $10 billion per year for each year 
remaining in the program (FY09-13) would be needed to complete fielding 
equipment to all components by FY15.
    Mr. Castor. Identify particular parts of base budget and 
supplemental requests that align with mission in Afghanistan.
    Secretary Harvey. In the Army FY08 Supplemental request there is 
approximately $7.6 billion aligned to the mission in Afghanistan. The 
total consists of the following breakout by category: Operations and 
Maintenance--$3.4 billion, Military Pay, $.9 billion, Procurement, $.5 
billion, Military Construction $.1 billion, and Security Forces $2.7 
billion. The base budget does not have funds aligned to the mission in 
Afghanistan.
    Mr. Castor. What are the current challenges for Army, National 
Guard and Army reserve in support roles for civil authorities in time 
of natural disaster, i.e. equipment, timing of equipment delivery and 
available personnel?
    Secretary Harvey. During a disaster, personnel availability is 
usually not a significant challenge but challenges do exist because the 
Army National Guard has less equipment than is authorized. When a 
disaster-stricken state or territory needs a response and recovery 
capability not available inside that state or territory, it can receive 
additional capability from other states or territories through the 
Emergency Management Assistance Compact. While this prevents a state or 
territory from being without capability, such a transaction takes time 
and time is of the essence in disaster response. As a result, Army 
National Guard equipment shortages may result in slower response times 
during a disaster.
    The U.S. Army Reserve (USAR) is challenged by a shortage of 
approximately 23% (124,946 pieces) of the equipment designated by the 
National Guard as ``dual-purpose'' (Modified Table of Organization and 
Equipment (MTOE) equipment that fill both the MTOE mission and also 
potential state missions). The total equipment shortage for the USAR is 
$10.749 billion. As one of the nation's first federal responders, the 
Army Reserve provides the requested MTOE unit capabilities 
(Transportation, Medical, Aviation, Engineer, Quartermaster, etc) to 
the states and other agencies when directed. Those capabilities consist 
of both equipment and unit personnel (equipment operators and support 
personnel) required for prompt and successful disaster response. The 
responding USAR unit equipment shortages often require equipment cross 
leveling from units in other parts of the country. While the USAR has 
always been successful meeting disaster relief requirements, the 
response time will increase if necessary equipment must be borrowed 
from other locations. During FY06, the USAR repositioned over 3000 
items of equipment to better posture the USAR'S response to hurricanes 
or other disasters. Although there are challenges, USAR forces will 
continue to support mission requirements in response to natural 
disasters. A concern is that while equipment procurement for the Army 
is supported, unless dedicated procurement is provided for the Army 
Reserve, the equipment, as in the past, will be diverted to other Army 
priorities and not result in USAR equipping, or improvements to our 
unit readiness.

                                  <all>

</pre></body></html>
